<html>
<title> - HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF THE DISABLED AMERICAN VETERANS (DAV)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                     HEARING TO RECEIVE LEGISLATIVE
          PRESENTATION OF THE DISABLED AMERICAN VETERANS (DAV)

=======================================================================

                             JOINT HEARING

                                  with

        The United States Senate Committee on Veterans' Affairs

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION
                               __________

                       TUESDAY, FEBRUARY 25, 2014
                               __________

                           Serial No. 113-53
                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-666                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                              
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                   BERNARD SANDERS, Vermont, Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina, 
    Virginia                             Ranking Member
PATTY MURRAY, Washington             JONNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
JON TESTER, Montana                  JERRY MORAN, Kansas
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas
RICHARD BLUMENTHAL, Connecticut      DEAN HELLER, Nevada
MAZIE HIRONO, Hawaii

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                       Tuesday, February 25, 2014

Hearing to Receive Legislative Presentation of the Disabled 
  American Veterans (DAV)........................................     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman.......................................     1
Senator Richard Blumenthal.......................................     4
Hon. Michael Michaud, Ranking Minority Member....................     5
    Prepared Statement...........................................    28

                                WITNESS

Joseph W. Johnston, National Commander, Disable American Veterans     8
    Prepared Statement...........................................    28
    Accompanied by:

        Jim Marszalek, National Service Director;
        Joseph A. Violante, National Legislative Director;
        Garry J. Augustine, Executive Director Washington 
            Headquarters;
        J. Marc Burgess, National Adjutant;
        Barry A. Jesinoski, Executive Director National 
            Headquarters;
    And
        Susan K. Miller, National Commander, Disable American 
            Veterans, Auxiliary

 
 HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF THE DISABLED AMERICAN 
                             VETERANS (DAV)

                       Tuesday, February 25, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
          Subcommittee on Senate Veterans' Affairs,
                                                   Washington, D.C.
    The committees met, pursuant to notice, at 1:59 p.m., in 
Room 345, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the House Committee on Veterans' Affairs] 
presiding.
    Present from the House Committee on Veterans' Affairs: 
Representatives Miller, Roe, Runyan, Wenstrup, Michaud, Takano, 
Brownley, Kirkpatrick, McLeod, and Walz,
    Present from Senate Committee on Veterans' Affairs: 
Senators Blumenthal, Boozman, and Heller.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. The committee will come to order.
    Good afternoon, everybody. Thank you for being with us on 
this wonderful Florida sunshiny day. It is my privilege to 
welcome you to today's joint hearing on the House and Senate 
Veterans' Affairs Committees to receive testimony on the 
legislative priorities for the Disabled American Veterans.
    Before we get started, I have a little bit of housekeeping 
that we need to address, and I would like to say in the 
interest of time and in keeping with the tradition of these 
hearings, after hearing from myself, Chairman Blumenthal, 
Ranking Member Michaud, and Acting Ranking Member Heller, I 
would like to ask all other committee members to waive their 
opening statements. There is going to be an opportunity for 
remarks following testimony today.
    Hearing no objection, so ordered.
    It is truly an honor for me to be here this afternoon with 
so many DAV members, and I thank you all for coming to the Hill 
once again. Due to the hard work and dedication of DAV's 1.4 
million members, especially DAV service officers, veterans are 
provided with professional benefit counseling and claims 
assistance, and transportation to and from VA healthcare 
facilities. DAV also assists with transition assistance 
services and on-site care at military treatment facilities, at 
VA medical centers, and clinics, and at home. That is just to 
name a few of the many programs that you, DAV, provide every 
single day.
    I have witnessed many of these efforts firsthand, and I am 
personally grateful to each of you for the hard work that DAV 
does across the country, as well as right here in Washington, 
D.C.
    On behalf of a grateful Nation, thank you all for your 
commitment to our veterans, for your time this afternoon, and 
for your brave and honorable service to our Nation.
    I now want to take a few moments to welcome several 
individuals who have transitioned into new leadership roles 
with DAV. I begin with National Commander Joseph W. Johnston, 
who was elected to the position at DAV's 2013 national 
convention.
    Mr. Johnson retired from the United States Army in 1992 and 
subsequent to his military service has dedicated his efforts 
towards working with nonprofit organizations. Commander 
Johnston, we welcome you here today.
    Other new placements within the professional leadership of 
DAV include Navy veteran J. Marc Burgess, who now serves as 
Chief Executive Officer and National Adjunct; Army veteran 
Garry Augustine, the new Executive Director. Garry, nice to 
have you back. Marine Corps veteran Jim Marszalek now serves as 
DAV National Service Director, and his fellow Marine Corps 
veteran, Barry Jesinowki, leads as Executive Director DAV 
National Headquarters in Cold Spring, Kentucky. Very good to 
have you back, too.
    And with us today, is Ms. Susan Miller, who was elected to 
the Office of National Commander of the DAV Auxiliary. Ms. 
Miller previously served as a registered nurse with the 
Veterans Health Administration and I note that Ms. Miller's 
son, Trent, is a member of the United States Army, recently 
serving in his second deployment to Afghanistan.
    Gentlemen and Ms. Miller, thank you for your leadership, 
and for your service. I look forward to working with each of 
you in your new roles and continuing to work with those of you 
that are continuing in the roles that you have had for a number 
of years.
    I would also like to recognize the DAV members from my home 
State of Florida who may be with us today. If you could, please 
just raise your hand up so we can say hello. Isn't this just 
like home? This is just like home, right?
    Welcome to those from the Sunshine State. We are glad to 
have you here. Each of you are a credit to our State of Florida 
and to your communities. I am proud to have you here in your 
Nation's Capital. Thank you for your military service and for 
your ongoing service to veterans.
    Commander Johnston, officers and members of the DAV, you 
have a tremendous force behind you to accomplish the immense 
mission that is before each of us. Our charge, yours and mine, 
is to assist and oversee that the Department of Veterans 
Affairs, carries out America's promise to those who have worn 
the uniform of this country. This includes ensuring that 
veterans receive timely, accurate, and consistent decisions 
when seeking service-connected disability compensation, safe, 
and high quality health care and prompt access to earned 
benefits. It demands that in dealing with the Department of 
Veterans Affairs, veterans be treated with the dignity and 
professionalism that is earned through honorable service to our 
Nation. The need for oversight is crucial, but the need for 
accountability is paramount.
    Speaking directly to the Disabled American Veterans, you 
and your members understand that leaders must set the example. 
True leaders lay out clear expectations and put others in 
positions to succeed. They follow through and most importantly, 
they hold themselves accountable for their actions. Follow me! 
That is the motto of the infantry. Yet, those words can be 
easily translated to organizational leadership at VA. When 
there is a mission to be accomplished, those who put themselves 
on the line are the leaders that others want to follow. And it 
is a lack of accountability that corrodes trust within a chain 
of command. That said, an undeniable, widespread, systematic 
lack of accountability exists today in the Department of 
Veterans Affairs.
    In fact, if you look at recent preventable deaths at VA 
medical centers, patient safety incidents, and claims backlog 
increases, department senior executives who presided over 
negligence and mismanagement are more likely to have received a 
bonus than punishment. It is a leadership model that is primed 
for failure.
    Today, I ask for your support of a measure that I have 
introduced, H.R. 4031, The Department of Veterans Affairs 
Management Accountability Act of 2014. This bill would provide 
tools to the Secretary of Veterans Affairs to better manage 
Senior Executive Service employees; those who are directly 
responsible for the day-to-day success, or failure of VA 
programs. H.R. 4031 would give the Secretary the power to hold 
leaders accountable when they fail to perform their duties in a 
manner that properly serves the veterans entrusted to their 
care. DAV, you know leadership and I hope that you will support 
this bill and work with us to empower the Secretary to lead VA 
into the future.
    And I also want to comment on something from your written 
remarks. You noted that the Department, specifically the 
Veterans Benefits Administration, has exhibited reduced 
transparency and openness of late. I can assure you that this 
shift has been noted by this Congress and I will underscore 
these ongoing concerns to the Secretary.
    If VA is to effectively carry out its duties, the 
Department, as well as Congress and veteran service 
organizations, must be open to candid and honest conversation. 
I will be paying close attention to the matters of transparency 
as VBA pushes towards 2015 and I encourage you to continue your 
dialogue with Congress and VA to the maximum extent possible.
    I look forward to hearing your testimony today and I am 
certain that we will work together over the coming months on 
many items that are on your list of legislative priorities.
    But before I yield my time, I want to touch upon one 
specific area that you have noted is a top priority for DAV in 
2014: The expansion of advanced appropriations for the 
Department of Veterans Affairs.
    Thank you for your resounding support of H.R. 813, The 
Putting Veterans Funding First Act. While the Veterans Health 
Administration is largely shielded from budgetary impasse, 
other functions critical to the department and to veterans are 
not; including accounts for information technology, and 
construction spending on vital maintenance and improvement 
projects. I am also going to continue to advocate for passage 
of this measure as well. Gridlock must not compromise the 
functionality of the Department of Veterans Affairs.
    There is great work ahead for all of us, but with your 
help, I am confident that there is also great potential for 
success for America's veterans.

        OPENING STATEMENT OF SENATOR RICHARD BLUMENTHAL

    The Chairman. Thank you once again for being here today, 
and I now yield time to my colleague and friend from the 
Senate, Chairman Blumenthal, for his opening statement. 
Senator.
    Senator Blumenthal. Thank you very much, Chairman Miller, 
and thank you to the leadership of the DAV, Commander Johnston 
and others who are here today.
    A most important thank you to all of the DAV members who 
are here. Thank you so much for making the trip, and sending a 
message by your presence about not only the concern and 
interest, but your knowledge and power by your numbers and your 
presence here today.
    I would like to ask that Chairman Sanders' full opening 
statement be placed in the record. He could not be here today 
because, indeed, he is helping to manage the bill, the 
comprehensive bill that is under consideration this week before 
United States Senate. And indeed, I may have to--I will have to 
leave early to go back and assist him in that effort. I hope 
you will forgive me, but with the chair's permission, I would 
like to ask that his opening statement be placed in the record, 
and I would like to make a few opening brief remarks.
    The Chairman. Without objection. I thought it was probably 
going to be because of the snow that he was not able to be 
here.
    Senator Blumenthal. We are here in the warmth compared to 
Connecticut and Vermont. Let me ask all of the Connecticut DAV 
members who are here to please raise your hand so I can thank 
you personally for being here, all of the Connecticut members. 
I know that Connecticut DAV State Commander Robert Werlich, 
First Junior Vice Commander Barry Bernier, and Dominick Cortez, 
the DAV State Vice Commander, all regularly advise me, and 
their guidance and thinking is so very valuable to me.
    Let me begin by thanking the DAV for its support for the 
Comprehensive Veterans Health and Benefits Military Retirement 
Pay Restoration Act which is the bill on the floor of the 
Senate this week.
    The DAV said about this bill--this bill is, and I am 
quoting, ``unprecedented in our modern experience, would 
create, expand, advance, and extend a number of VA benefits, 
services, and programs that are important to the DAV and to our 
members.'' Your help and support has been critical along with 
the help and support of virtually every veterans' and military 
service organization in the country, including the American 
Legion, the Veterans of Foreign Wars, the Disabled American 
Veterans, the Vietnam Veterans of America, the Military 
Officers Association of America, the Iraq and Afghanistan 
Veterans of America, the Paralyzed Veterans of America, the 
Gold Star Wives, and many more.
    We thank you for your support for this bill, which includes 
many measures that were reported out of our committee, the 
Senate Veterans Affairs' Committee by unanimous vote or on a 
very overwhelmingly bipartisan vote. There is nothing partisan 
about supporting this bill or any other measure that provides 
what we owe to our veterans. They should be above partisan 
politics.
    And this bill is big and broad because the needs and 
challenges of all of our veterans are big and broad. That is 
why it is comprehensive. It would provide the restoration of 
COLA for military retirees, improve VA health care and 
benefits, expand educational opportunities for our veterans, 
help end the benefits backlog, which we know bedevils many 
parts of our country still, and would help put our veterans 
back to work, and I am very proud to be supporting this 
measure. It is a historic effort to be comprehensive, to reach 
and aid our veterans in a multi-pronged, multifaceted way.
    Of particular interest to me is hearing from you about 
where you think the priorities ought to be and how we can 
address the problem of uniting, for example, uniting the 
medical records and personnel data of the Department of 
Defense, and the Department of Veterans Affairs. There are 
gaping divisions in that system where there should be none, and 
I am appalled by the delays that often occur in the transfer of 
information. I am deeply appreciative of the work of the DAV 
experts who help every day in aiding our veterans with their 
claims and I value your expertise in addressing this challenge.
    I am also personally committed to determining what we can 
do more and better to help veterans who suffer from 
posttraumatic stress. We should assist equally a veteran from 
today's conflicts as well as those from past conflicts, 
including our Vietnam veterans who suffered posttraumatic 
stress before this debilitating condition was medically 
diagnosed or perhaps even seen for what it is.
    That is why I am working to get the Department of Defense 
to give a second look at the records of our veterans of past 
wars, including Vietnam, who may have been less than honorably 
discharged, or otherwise disadvantaged because their condition 
was undiagnosed and untreated.
    Given what we now know, those individuals who today are 
upstanding members of the community and suffered from 
posttraumatic stress ought to be given a second look, and their 
discharge status reevaluated if necessary.
    On all of these issues, again, your expertise and guidance 
not only today, but every day is very, very valuable, and I 
want to welcome you and thank you for your service to America 
in uniform, and when you have returned to your communities, and 
today as you come back to the Capitol.
    Thank you, Mr. Chairman.

   OPENING STATEMENT OF MIKE MICHAUD, RANKING MINORITY MEMBER

    The Chairman. Thank you very much, Senator.
    I now yield 5 minutes or as much time as he may consume to 
the ranking member of the full House committee, Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman, and thank 
you for your service to this great Nation of ours as well.
    Good afternoon, Commander. I want to thank you and all 
members of DAV and the Auxiliary for your service. We also 
thank you for your continued dedication to our Nation's 
veterans.
    I want to take an opportunity, also, to welcome those in 
the audience from Maine. The sons and daughters of Maine have a 
history of serving our Nation and I am glad to see that they 
are continuing that tradition as well by fighting for veterans' 
issues.
    DAV and other veterans groups are active and valued 
partners with us in Congress as we work to keep our promise to 
America's veterans. I want to thank you for your work of 
advocating and the passage and enactment of H.R. 813, The 
Putting Veterans Funding First Act. We have seen how well 
advanced appropriation has worked for VA's medical care. It is 
time that the rest of VA's discretionary budget be treated the 
same way. We owe it to America's veterans to provide certain 
and stable VA budget funding.
    VA is pursuing a wide range of initiatives from new methods 
of healthcare delivery, to electronic benefit management. These 
investments will help bring the Department into the 21st 
century. Working with you in the Department of Veterans 
Affairs, we will make sure that these initiatives are 
implemented fairly, transparently, and in the best interest of 
veterans and the American taxpayers, making sure that the 
Department of Veterans Affairs can meet the challenges of the 
21st century is a job of all of us.
    And I know the DAV, your members across the country, and 
your staff here in Washington are ready and eager for that 
challenge. I look forward to your testimony today, Commander, 
and again, I want to thank you and DAV's long history of 
distinguished service for the men and women who wear the 
uniform. And it is because of VSOs such as this organization 
that actually will give Members of Congress the information we 
need so that we can make those decisions important for our 
veterans and their families in this country. So once again, 
thank you very much.
    And thank you, Mr. Chairman, and I yield back.

    [The prepared statement of Hon. Mike Michaud appears in the 
Appendix ]

    The Chairman. I recognize for as much time as he may need, 
the Acting Ranking Member, Mr. Heller from Nevada.
    Senator Heller. Mr. Chairman, thank you.
    The Chairman. Glad to have you here.
    Senator Heller. Good to be back seeing old colleagues and 
some old friends that I have on this side of the Capitol.
    I want to thank the commander for being here today and 
everybody that will be testifying and answering questions 
today. Thanks for taking time and it is always a wonderful view 
to see this crowd, everybody here in your advocacy for issues 
that are important to all of us.
    I want to take a moment though to acknowledge the veterans 
who have flown here from my home State, Bill Bowman, and John 
Hanson. Are you out there today? There we go. Any other 
Nevadian veterans out there, please raise your hand.
    Anyway, they are tremendous advocates. They had 
appointments in my office at 9:30 this morning, and they were 
there at 8:30. So if that gives you any idea how aggressive 
they are, and I appreciate all the work that they do and they 
are great advocates and they represent the Battle Born State 
quite well.
    Commander Johnston, I think we can all agree that there 
remains a lot to be improved upon when it comes to--and for our 
caring of our American veterans, which is why the work that the 
DAV does as an advocacy group and resource for our veterans is 
so important.
    This is the second year I have had the privilege to sit on 
the Senate Veterans Affairs' Committee. While that may not be 
for as long a period of time compared to some of the other 
Members here, it is clear that one issue continues to be a 
primary focus, and that is the disability claims backlog at the 
VA.
    The VA promised veterans that their claims would be 
completed in less than 125 days. Yet more than 4,300 veterans 
in Las Vegas, Reno, and across Nevada have waited much longer 
than that. In fact, Nevada has the longest waiting time in the 
Nation. That is why I have made it a top priority on this 
committee to work to address this issue in a bipartisan manner. 
The claims backlog is the greatest challenge facing the 
Department of Veterans Affairs today.
    But this issue has been plaguing the VA for over 20 years, 
or two decades and the reality is we must update the process. 
It is a 1945 system for a 21st century veteran. The VA needs a 
claims process that is proactive rather than reactive; one that 
can anticipate the needs of veterans to keep a backlog from 
happening.
    Some may want to point fingers, place blames, but at the 
end of the day, Congress, the VSOs, and the VA all have a part 
to play. For the past year I worked with Senator Casey through 
a bipartisan VA backlog working group to learn more about why 
the backlog exists and what can be done to fix it. I am also 
pleased that Senators Moran and Tester have joined us in this 
effort. It has taken significant time and resources to dig into 
this issue, and shortly, I look forward to rolling out 
suggestions that we have developed with the help of the DAV. 
Our Nation owes it to our veterans to keep our promise to care 
for them and resolve this problem together.
    This is just one of the many important issues that will be 
discussed today, and I appreciate DAV being here and look 
forward to the testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Senator, we are 
certainly glad to have you back on our side of the building.
    Before I yield to my colleague Dr. Wenstrup, I want to also 
recognize two other people that I did not talk about to start 
with: Joseph Violante, who is a long-time National Legislative 
Director. Joe, it is great to you have here with us, and see 
you on the Hill all the time. And Ron Minter, National Director 
of Voluntary Services. Ron, glad to have you here too.
    My staff had just said I was going to yield to 
Representative Wenstrup to introduce the commander, but I think 
it is important that you understand that Dr. Wenstrup is a 
combat veteran of Iraq, a surgeon by trade, and a Bronze Star 
recipient.
    With that, Mr. Wenstrup, you are recognized.
    Mr. Wenstrup. Thank you, Mr. Chairman.
    As a proud member of the House Veterans Affairs' Committee, 
it is my privilege to introduce Joseph Johnston, National 
Commander of Disabled American Veterans. As Commander Johnston 
works to represent injured and disabled veterans, I have had 
the honor to represent him in the House of Representatives.
    Having personally served as a combat surgeon in Iraq, I saw 
our troops in the minutes and hours after being wounded. But 
oftentimes, the toughest battle our veterans fight is when they 
come home. Disabled American Veterans is a strong advocate for 
those who have served our Nation and given more than most, and 
Commander Johnston does yeoman's work on the behalf of the 
Nation's disabled veterans. I have had the honor of sharing the 
stage with Mr. Johnston during veterans tributes in Ohio. His 
passion for our military veterans is clear. It is selfless and 
with great conviction.
    A 100 percent service-connected disabled veteran who served 
in the Vietnam and Persian Gulf wars, Commander Johnston served 
and joined the U.S. Army in 1966, serving first as an enlisted 
soldier, and later as a commissioned officer. He retired at the 
rank of Colonel in 1992, and was inducted into the Ohio 
Veterans Hall of Fame in 2007, and is a life member of DAV 
chapter 63 in Williamsburg, Ohio.
    In our State of Ohio, and nationally, Commander Johnston 
has been elected to and held various management and leadership 
positions with the DAV and is active in various chapter and 
department VA voluntary service programs, culminating in his 
election as national commander last year.
    Fellow Members of Congress from the House and Senate, it is 
my honor to introduce National Commander Joe Johnston to 
present the DAV's legislative agenda.
    Mr. Johnston. Thank you.
    The Chairman. Welcome again, Commander, and you are now 
recognized for your testimony.

 STATEMENT OF JOSEPH W. JOHNSTON, NATIONAL COMMANDER, DISABLED 
   AMERICAN VETERANS, ACCOMPANIED BY JIM MARSZALEK, NATIONAL 
  SERVICE DIRECTOR; JOSEPH A. VIOLANTE, NATIONAL LEGISLATIVE 
 DIRECTOR; GARRY J. AUGUSTINE, EXECUTIVE DIRECTOR, WASHINGTON 
  HEADQUARTERS; J. MARC BURGESS, NATIONAL ADJUTANT; BARRY A. 
 JESINOSKI, EXECUTIVE DIRECTOR, NATIONAL HEADQUARTERS; RON B. 
 MINTER, NATIONAL DIRECTOR OF VOLUNTARY SERVICE; AND SUSAN K. 
    MILLER, NATIONAL COMMANDER, DISABLED AMERICAN VETERANS 
                           AUXILIARY

                STATEMENT OF JOSEPH W. JOHNSTON

    Mr. Johnston. Representative Wenstrup, friend, fellow 
warrior, thank you very much.
    Chairman Miller, Acting Ranking Member Heller, and Ranking 
Member Michaud, I want to thank you for convening today's 
hearing and for your leadership in helping to fulfill the 
promises to the men and women who have served.
    Chairman Sanders has recently brought forth introducing 
Senate bill 1982 and that is indeed one of the most wide-
ranging veterans bills ever brought forward. I would like to 
extend our sincere appreciation to Chairman Sanders and all 
members of these committees on behalf of the more than 1.4 
million members of DAV and its Auxiliary for the outstanding 
support that you have given our Nation's injured and ill 
veterans and their families and survivors.
    We wish you all the best in your efforts through the rest 
of the 113th Congress on behalf of America's veterans, their 
families, and survivors.
    Allow me to introduce those seated at the table with me, as 
well as some distinguished guests. National Adjutant Marc 
Burgess; Executive Directors Barry Jesinoski and Garry 
Augustine; Service Director Jim Marszalek; Legislative Director 
Joe Violante; Voluntary Services Director Ron Minter; Auxiliary 
National Commander Susan Miller of Colorado; Auxiliary National 
Adjunct Judy Hezlep, DAV Senior Vice Commander Ron Hope of 
North Carolina; Junior Vice Commanders Moses McIntosh of 
Georgia; Dave Riley of Alabama; Delphine Metcalf-Foster of 
California; and Dennis Krulder of New York; National Judge 
Advocate Mike Dobmeier of North Dakota; Immediate Past National 
Commander Larry Polzin of California; National Chief of Staff 
Raymond Hutchinson of Ohio. And let me also introduce the love 
of my life, Vicky, and my son James, who is also a DAV member, 
and his wife Rhonda.
    One man who for the first time in decades is not at the 
table with us today is Art Wilson. He retired in 2013 after a 
47-year career serving as DAV's superbly effective Chief 
Executive Officer and National Adjutant. Art's departure after 
such a long and distinguished term will clearly leave a void, 
but DAV has selected an able, experienced executive in Marc 
Burgess as our new CEO and National Adjutant. Will the DAV 
National Executive Committee please stand and be recognized.
    Will the members of the National Legislative Interim 
Committee also please stand?
    And I would also like to recognize the entire DAV 
delegation from my home State of Ohio. Please stand.
    I have already submitted for the record my written 
testimony detailing a number of concerns and ideas for your 
information and consideration, so I will use my time today to 
highlight a few of the most important issues facing veterans 
today.
    Messrs. Chairmen, veterans stand with each other and 
support one another in combat. And long after the bullets cease 
to strike, we always rely on our warrior brothers and sisters, 
and I am hoping that every Member of Congress will also stand 
with us and for us each and every day of your respective terms.
    Since our founding, DAV has remained dedicated to 
fulfilling our promises to the men and women who served, their 
families, and survivors. DAV's core mission is carried out 
through our chapter, department, transition, and national 
service officers. In all, DAV has nearly 3,000 service 
officers, including county veteran service officers who are 
credited by DAV.
    During 2013, DAV's 276 National Service Officers 
interviewed over 187,000 veterans and their families, reviewed 
more than 313,000 VA claims files, filed over 215,000 new 
claims for benefits, and participated in more than 272,000 VA 
rating board actions. In addition, our national appeals 
officers provided representation in almost a third of the 
appeals decided before the Board of Veterans Appeals.
    Our transition service officers conducted some 1,400 
briefings to groups separating service members, with 54,000 
total participants in those sessions, counselled almost 31,000 
persons in individual interviews, reviewed the military service 
treatment records of 30,260 individuals, and submitted benefits 
applications for 19,000 personnel to DAV NSOs for filing with 
the VA, and our mobile service officers traveled almost 90,000 
miles last year to 833 cities and towns, and met with more than 
20,000 veterans, and other potential claimants to offer our 
assistance. About 17,000 DAV and Auxiliary volunteers donated 
more than 1.8 million volunteer hours to assist America's 
wounded, injured, and ill veterans every year, saving taxpayers 
over $40 million in cost.
    DAV's national transportation network logged almost 26,000 
road miles and transported over 700,000 veterans to VA 
healthcare facilities. Nearly 9,000 volunteer drivers spent 
over 1.7 million hours transporting veterans. From 1987 to 
2013, we had donated nearly 3,000 advance to the VA at a cost 
to the DAV of more than $57 million.
    Messrs. Chairmen, and members of the Veterans Affairs' 
Committee, let me thank those of you who joined us for a couple 
of hours ago in front of the Capitol at our press conference 
calling for advanced appropriation for all veterans programs, 
service, and benefits. We are also joined by members of many 
other veterans and military organizations, by all uniting with 
a message for Congress to pass The Putting Veterans Funding 
First Act. In addition, hundreds of DAV members and supporters 
have been visiting your offices. Thousands have been calling 
from back home, and over a million--that is over a million--
have sent or heard or messaged through Facebook, Twitter, and 
the other social media, all calling on Congress to keep the 
promise by passing advance appropriations.
    Today, if you open up any of the Capitol Hill publications, 
you will see our full page ad and you can see them online at 
corresponding Web sites. You can also read the op ed in today's 
Wall Street Journal that former VA Secretary Tony Principi and 
I coauthored, and another op ed in yesterday's Washington Times 
that I wrote together with the national leaders from the VFW, 
and the American Legion. Together, our organizations represent 
more than 5 million veterans.
    Messrs. Chairmen, you and the other members of these 
committees know the importance of advanced appropriations 
judging by the overwhelming votes in favor of this legislation 
in both of your committees.
    Let me especially recognize Chairman Miller, and 
Congressman Michaud for sponsoring the legislation in the 
House, and Senators Begich and Boozman for sponsoring this 
legislation in the Senate.
    I also want to thank you, Chairman Sanders, who isn't here, 
for getting behind this legislation and ensuring that Senate 
Bill 1982 included VA's mandatory benefits and for moving it 
through the committee.
    The government shutdown last October confirmed what has 
become increasingly clear. The Federal budget and 
appropriations process is broken. Over the past 25 years the 4-
year budget for the Department of Veterans Affairs has only 
been enacted by the start of the fiscal year only three times. 
In 2009, as a result of a grassroots advocacy effort by DAV and 
other VSOs, Congress passed and the President signed the 
Veterans Healthcare Budget Reform and Transparency Act that 
provides advanced appropriations for VA medical care programs.
    This past October, while many VA offices and services were 
shut during the shutdown, VA hospitals and clinics were able to 
provide uninterrupted health care. By contrast, claims 
processing to reduce the backlog was slowed, activities at 
National cemeteries were scaled back, and medical research 
projects were nearly suspended.
    When VA regional offices were shut down, many of our 
national service officers resorted to occupying temporary 
quarters, including tents, in order to continue helping 
veterans seeking their earned benefits. We at DAV determined 
that our free representation would not, and could not be 
interrupted.
    In the last year Veterans Day activities, a woman 
approached me to say how grateful she was to DAV for our 
efforts in helping during the government shutdown before VA ran 
out of funds for disability compensation. She and her husband's 
only income was his monthly VA compensation. And as the 
shutdown lingered on, she told me with tears in her eyes, that 
they were terribly worried that they would not be able to buy 
food, gas, or pay their rent.
    As national commander of this tremendous organization, I 
was grateful for those kind words about DAV's effective 
advocacy, but it concerned me greatly that she and her husband 
were forced to go through such a terrible ordeal given the 
sacrifice they had already made for this country. We should 
never again put a disabled veteran or his or her family in 
similar circumstances.
    This is why DAV's Operation Keep the Promise has made 
advance appropriations for all VA funding accounts, including 
its mandatory disability payments to veterans, our highest 
legislative priority in 2014.
    Messrs. Chairmen, advance appropriations is a common-sense 
approach to a long-standing problem and it has broad and 
bipartisan support in Congress and the veterans community, and 
by the American people at large.
    Now it is up to the leaders and Congress to bring this 
legislation up for votes in both the House and the Senate. It 
is time for Congress to keep the promise to American's 
veterans.
    Of course, authorizing benefits for veterans, especially 
disabled veterans, without providing the systems to deliver 
those benefits in a timely, accurate, manner is a promise 
unfulfilled. For decades, VA's benefits claims process has 
failed to meet that promise. Today, however, for the first time 
in years, some good news is coming from the VBA. After 4 years 
of comprehensive transformation that included implementation of 
new organizational and operating processes, new IT systems, and 
new training, testing, and quality control regimes, there is 
measurable progress in addressing the backlog of pending claims 
for a veteran's benefits.
    Similarly, without the infrastructure to deliver services 
and benefits the promises made by our government will ring 
hollow. DAV believes one of the greatest challenges facing the 
VA and the enormous shortfall in funding for VA's capital and 
infrastructure, according to VA's own analysis, just to 
maintain its current infrastructure requires up to $64 billion 
over the next 10 years. But at current funding rates, VA will 
need more than 25 years to complete that work. In major 
construction alone, VA estimates say that there is an average 
of $2.3 billion is needed each year for the next decade, but 
this funding's level was a pitiful $342 million. Our veterans 
deserve more than aging facilities that may soon be falling 
down around them.
    We need your support to increase funding for maintaining 
VA's infrastructure needs to continue delivering the health 
care and benefits our Nation's heroes have earned.
    Messrs. Chairmen, family caregivers play an indispensable 
role as a part of VA's long-term services and support systems. 
They provide the vast majority of the care for loved ones with 
chronic needs and functional limitations. As a result of 
legislation passed in 2010, VA provides essential caregiver 
services and support only to the newest generation of severely 
injured and wounded veterans. Family caregivers of veterans 
from earlier wars do not receive the same comprehensive support 
to fully address the burdens and strains of a lifetime of 
caregiving. DAV urges Congress to correct the inequity and 
extend this successful program to caregivers of all eras.
    In closing, I would like to point out to all of you that 
before you are men and women of honor. That means that they did 
whatever was needed to be done when our country called. And 
ladies and gentleman, you can still call on us any time that 
you need us and we would be proud to serve. That is why this 
country is never going to be overrun by an enemy force as long 
as we all draw breath.
    Messrs. Chairmen, this completes my testimony, and my staff 
and I would be very pleased to respond to any questions that 
you may have. Thank you for allowing me the opportunity to 
appear before you on behalf of the DAV and to share our proud 
record of service to veterans and our country. May God bless 
America's Soldiers, Sailors, Airmen, Coast Guardsmen, and 
Marines who are in harm's way, and may God continue to bless 
the United States of America.
    Thank you.

    [The prepared statement of Mr. Johnston appears in the 
Appendix]

    The Chairman. Thank you very much for your testimony, 
Commander.
    What I would like to do since the Senators may have to 
depart to go back to the Senate side for the debate that is on 
the floor, I would like to go ahead and yield to the chairman 
for any questions he may have in case he has to leave. Senator.
    Senator Blumenthal. Thank you, Chairman Miller. I very much 
appreciate that courtesy in yielding, and am very grateful for 
that very stirring and inspiring comment and testimony.
    I want to focus my brief couple of questions on the capital 
budget, the 10-year plan that as you very wisely and 
perceptively say can't be accomplished in less than 25 years, 
which is a contradiction in terms, and really a betrayal of the 
promises that we do need to keep.
    And I want to ask you about the impacts, the human impacts, 
if you could tell us from your deep and vast experience of 
failing to fulfill that 10-year plan?
    Mr. Johnston. Yes, sir.
    The impact is going to be even greater if we bring down the 
Army and the other services to pre-World War II levels. The VA 
is going to be inundated with new requests for claims and for 
new requests for healthcare services.
    And to have these infrastructure facilities falling down 
around folk's ears, is absolutely the wrong thing to do. And we 
need to make sure that we get the appropriate amount of funds 
budgeted to cover these shortfalls that are certainly going to 
occur in the years to come. Simply because the war ends, does 
not mean that the necessity for VA services gets any less. It 
gets greater.
    Senator Blumenthal. In fact, perhaps you would agree with 
me that the contrary is true. As the wars end and as we 
downsize to levels of World War II and pre-World War II, the 
Army, for example, at 440,000 to 450,000, we are going to see a 
million men and women leave the military over the next 5 years. 
That statistic comes from the VA itself; in fact, from General 
Shinseki, a million men and women becoming veterans. Many of 
them afflicted, not only with highly visible wounds, but also 
the horrific invisible wounds of posttraumatic stress, and 
traumatic brain injury; 1 million men and women added to the 
ranks of our veterans. And they are the ones who will be 
impacted by this failure to fulfill the 10-year plan.
    In Connecticut, for example, we see the VA hospital in West 
Haven found wanting and failing in a number of critical areas 
by the IG, the Inspector General of the VA, in a recent report 
that has to be addressed through capital improvements as well 
as changes in procedures and practices.
    So I would agree with you very strongly, and really want to 
commend and thank you for the statement and the presence of so 
many of the Members who are here today so that we can fulfill 
that promise. Thank you very much.
    And I want to thank you, Mr. Chairman, for allow me to ask 
that question and in case I have to leave, I hope you will 
forgive me.
    Thank you.
    The Chairman. Senator Heller.
    Senator Heller. Mr. Chairman, thank you.
    And again, Commander, thank you very much for your 
testimony and everybody that is here today. It is good to see 
you here.
    At 4:30 this afternoon, I have Secretary Shinseki coming 
into my office. I am going to ask him a lot of questions. I am 
going to ask him, obviously, about the veterans backlog issue, 
and progress, if any are being made; the issue of lack of 
communication between my office and the VARO in Reno. That will 
be another question that I am going to ask, and hopefully get a 
good answer for. But there are other questions that you might 
think that I should ask him. Are there any questions, if you 
were talking to Secretary Shinseki today, what question would 
that be, and I am going to take notes, and this is your chance 
to advocate.
    Mr. Johnston. Well, I wouldn't presume, sir, to tell you 
what to ask the Secretary, although the Secretary is an 
Airborne Ranger like me, so he is my friend. And he has told me 
that he will reduce the backlog by 2015.
    But I would defer to members of my staff for any additional 
information that they want to share.
    Senator Heller. Love to hear from them, yes.
    Mr. Augustine. Yes, thank you.
    We do believe that the VA is making progress on the 
backlog. We obviously feel that advanced appropriations is 
necessary, because every year there is a lapse between the 
start of the fiscal year and when the budget is finally 
approved. That causes all kinds of problems in training, in 
getting things accomplished, and in an efficient business 
manner.
    We would like the Secretary to support our efforts to get 
advance appropriations for the rest of the VA, and for our 
discretionary. He himself has indicated that it is very 
important for his IT budget and his construction budget to be 
received on time because of the problems associated with those 
two issues. So we would like to know if the Secretary will 
continue to advance or to support our advance appropriations.
    Senator Heller. Very good. Anyone else?
    I certainly appreciate those comments, and they will be 
well heeded.
    One of the issues that comes up in my office, Commander, is 
the fully developed claims program. It is a new initiative by 
the VA office. Veterans who submit a fully developed claim are 
able to receive a decision under 125 days, and ensure that 
their claims do not become backlogged. I guess my question is: 
What more can Congress and the VA do to ensure that these 
veterans do fill out a fully developed claim?
    Mr. Johnston. I would make just a general comment before I 
turn this over to my staff that we believe that the reduction 
of the backlog is a combination of a fully developed claim 
process, the DBQs, and then also accountability that is passed 
on to the review officers. And we think those three things are 
exactly the types of answers to not only reduce the claims, but 
to a manageable level, but then to reduce the backlog entirely.
    Senator Heller. Let me, if I can ask a follow-up question. 
I know that the DAV works hard to encourage veterans you serve 
to file as complete a claim as possible. I also recognize that 
the veterans have the option to file any way they want; whether 
that is on that form, or perhaps on a paper napkin. Is that 
accurate, and can you explain to this committee why it is 
important that veterans still have the option to file a claim 
any way they want?
    Mr. Johnston. I will defer that to the staff.
    Mr. Marszalek. Yes, thank you.
    I think it is important that veterans still have the 
opportunity to file a claim, whether it is on paper, on the 
standard 526EZ, or if they do it on a regular form. Currently, 
they can take the regular piece of paper, as many people refer 
to as a napkin, send it to the VA regional office, and the VA 
has a duty to send the claimant the correct appropriate form to 
be completed, and then they return it.
    But that napkin starts to date the day they receive the 
claim. In VA's proposal, they are recommending that you have to 
file it on that 526EZ in order for them to start the date. And 
that is what we don't agree with. So it is very important that 
veterans still have the opportunity, because not everyone has 
easy access to those forms and not everyone can do it 
electronically either.
    So VA is still in the early stages of their transformation 
plan on filing claims electronically, so we feel it is 
important that we continue to allow them to submit claims on 
paper to protect their effective dates.
    Senator Heller. Very good. Thank you.
    Mr. Augustine. And if I might add.
    Senator Heller. Please.
    Mr. Augustine. You mentioned fully developed claims. In 
order to encourage people to develop their own claims, 
veterans, it is very important to have that process so that 
they can establish what is called an informal claim, and as Mr. 
Marszalek mentioned, protect that effective date so that they 
can then go out and develop the information that is needed to 
be a fully developed claim. That claim goes through the process 
much quicker. And without that protection on the effective 
date, they will not be motivated to go out and develop that 
evidence, and will leave it to the VA which causes the claim to 
have a lot longer development time.
    Senator Heller. Mr. Chairman, thank you. I see my time is 
running out, but it has been a pleasure to participate in 
Operation Keep the Promise.
    Thank you.
    The Chairman. Commander, in your written testimony, you 
talked about several initiatives that DAV finds that have had a 
positive effect on the backlog of disability claims, and one of 
those initiatives that DAV refers to is the quality control 
regimes or, as VA refers to them, quality review team, I don't 
know if you or your team is aware, but despite this positive 
feedback, there was a memo that was sent out a week ago today 
basically saying that all quality review team work would be 
discontinued until further notice so that all hands could be on 
deck to continue processing claims.
    And what I would like to hear from you is the effect that a 
temporary elimination of these review teams may have on the 
Secretary's goal of 95 percent accuracy within 125 days. 
Turning numbers out is one thing, but the accuracy is critical. 
Again, you may or may not be aware of it--Joe may be aware of 
it--but I would like to hear what you think the potential 
effects negative or positive could be.
    Mr. Johnston. I will let the staff answer that question.
    Mr. Marszalek. Thank you, Mr. Chairman.
    Quality is our number one priority. It always has been. We 
were very supportive with the creation of the QRT teams. We are 
aware of this initiative. This goes through the end of March. 
It is important that VA makes the decision right the first 
time. That is the only way that we want it. We are going to 
monitor very closely over this next 40 days or so to see how it 
impacts.
    What we don't want to see is this continue to happen. That 
was our concern in the beginning when the QRTs were created 
that they would use these folks when the initiative came up. 
QRT teams are very important and we have been happy with the 
progress of the QRT teams locally there, being able to, you 
know, do some centralized training on particular issues that 
they are seeing at that local VA regional office. So again, we 
feel it is important that quality is a number one priority over 
quantity.
    The Chairman. Also in your written statement, you stated 
that the most important factor driving VBA's productivity gains 
was undoubtedly the policy that was put into place of mandatory 
overtime for claims processing. I think that the overtime 
initiative has been helpful, without question, but it is not 
sustainable in the long term due to employee burnout and 
reduced accuracy rates. So indeed, the benefits program portion 
of the independent budget recommends that we provide sufficient 
resources to ensure adequate staffing levels at the VBA goes on 
to state that the VSOs recommended increase staffing levels 
instead of a sole reliance on mandatory overtime.
    So what I would like to hear is a further explanation of 
the independent budget rationale and the position that you--
take, and the organizations took--regarding whether that hiring 
additional employees may prove more beneficial to VBA than 
overreliance on mandatory overtime.
    Mr. Johnston. I would like to say just a few general words 
before I defer to staff for the specifics of that; but over the 
years, the independent budget has been the bellwether of the 
actual requirements for what was needed in the VA in the budget 
each year; and every time that that independent budget is 
ignored, it always results in additional appropriations having 
to be passed in order to meet the needs, so we do have 
confidence in our numbers. We have confidence in the quality of 
that product, and we certainly believe that you all should pay 
attention and heed it. So with that, I will defer to the staff.
    Mr. Violante. Mr. Chairman, I will respond to that and just 
say that in the independent budget, what we thought about was 
what happened several years ago when they brought on a core of 
temporary employees, trained them, put them into the workforce, 
and then through attrition either kept them on after the 
temporary period or let them go; and we felt that that provided 
VA, number one, with the resources, with sufficient trained 
employees, and also gave VA the opportunity to make a 
determination as to who was successful and who they can keep 
on.
    So we feel that overtime is nice, but after a while people 
do get burned out; and we would rather see, even if it is 
temporary in the beginning, a core of people coming on board to 
take care of the needs; and again, with automation and what VA 
is doing, the needs for the numbers that we have requested may 
go down over the years; and that gives VA the ability to then 
decrease their workforce when necessary and just keep those 
that are productive.
    The Chairman. Thank you. My time is expired. Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman. In this 
year's independent budget, you included a recommendation that 
VBA must develop a new metrics and assessment tool to measure 
the performance at every level of the claims processing system, 
based upon a scientific methodology of projecting workloads, 
resources, requirements and allocations. Can you provide some 
examples of the performance measures you believe that should be 
instituted at VBA.
    Mr. Johnston. I will defer that question to the staff.
    Mr. Augustine. Thank you. We firmly believe that there 
should be progressive metrics with benchmark compliance, 
transparency, so that we as VSOs can ensure that the VA are 
meeting their needs and making sure that it is more than just 
production goals but also quality goals; and we will continue 
to watch them closely and make them accountable for those 
benchmarks.
    Mr. Michaud. There is an old saying, if you can't measure 
it, you can't manage it. What part of the claims process, in 
your view, should be counted in order to be measured? Clearly 
you can get a lot of, you know, claims out the door, but the 
accuracy rate might be terrible; so what part of the claims 
process do you think should be measured?
    Mr. Augustine. There is no doubt that the VA's making sure 
that everybody knows about their production metrics, so of 
course, we are very concerned about the quality of those claims 
that are being done. Now, the DAV, for all the claims that we 
represent, we take a look at those claims before they are 
promulgated to make sure that there are no mistakes and take 
them back to the VA before they are finalized.
    However, there are many veterans that are not represented, 
so it is very important to make sure that quality across the 
board is being done and that they do it right the first time. 
Having that said, that would also reduce the appeals because if 
they get it right the first time, then you are not going to 
have as many appeals.
    Mr. Michaud. Actually that is my next question. As you 
know, as they move down to lower the backlog, the amount of 
appeals are actually as concerning is actually going up. What 
are you recommending as far as, that we should do as far as the 
appeals process, because that is a huge concern as a backlog 
claim comes down, the appeals process is going higher.
    Mr. Augustine. There is no doubt appeals are even a longer 
time frame than the adjudication of regular claims. So the more 
we can do to fix it at the front end, and I believe that with 
FDCs, fully developed claims, those will help the appeal 
process. Not only will the evidence be there at the very 
beginning that they need to do it right the first time, the 
time frame for those claims are much shorter, and I believe 
veterans would be much more satisfied to get a claim in a 
matter of weeks as opposed to a matter of months or years, 
knowing that the evidence that they submitted, and also all the 
evidence was considered as opposed to starting a claim, getting 
an exam, and then not having the claim adjudicated until months 
later when the condition could change between the time they had 
their exam and the time they actually adjudicate the claim.
    Mr. Michaud. My last question, since my time is running 
out, is on advance appropriation, I have no doubt that that 
bill was brought to the floor, that H.R. 813, that it passed 
Congress overwhelmingly, probably unanimous. What are you doing 
as far as to get leadership to bring the bill to the House 
floor for a vote on it.
    Mr. Violante. Actually yesterday our department of Ohio had 
a meeting in the Speaker's Office with his staff to discuss 
that fact in bringing advanced appropriations forward. Today, 
along with Operation Keep the Promise, we had thousands of 
calls made into the Capitol Hill switchboard at the time that 
we were at the rally; so we hope that with those phone calls, 
with the emails that we will be generating today, and with the 
visits that our members are making, that they will get the 
message to bring that bill to the floor for a vote.
    Mr. Michaud. Thank you very much. And thank you very much, 
Mr. Chairman.
    The Chairman. Thank you very much. Dr. Roe, you are 
recognized for five minutes.
    Mr. Roe. Thank you very much, Mr. Chairman. I got the 
message.
    I would like to take just a moment. Any Tennessee DAV if 
you would hold your hands up. I want to recognize you. Any of 
my Tennessee colleagues that are here. Commander, I want to 
thank you; and, Ms. Miller, thank you for your leadership for 
the DAV. And I want to just briefly tell you a very quick story 
about how much I appreciate why you are here.
    About a year and a half ago, a little over a year ago, I 
got to go back to Korea where I was stationed--and by the way, 
Colonel, my gig line is still straight, too, after 40 years. 
People that are civilians might not understand that. You do.
    I got a chance to go back to Korea, and I was there in 
1973; and I saw a country that was digging its way out of a 
war. They were recovering from a devastating war that leveled 
that country from one end to the other.
    In 1960, that country had the fourth poorest economy in the 
world. Today because of what you men and women did and people 
like you, there are 50 million free people; and the leadership 
of that country said every time you get in front, Dr. Roe, of a 
group of veterans, you thank them for us. I am doing that 
today. You are seeing the largest Christian church in the world 
is in Seoul, Korea; and by the way, to all my Baptist friends 
out there, it is a Methodist church, where I go. It is a 
country that has the eighth or ninth largest economy in the 
world thanks to what the American people did.
    You saw what happened after World War II. I cannot thank 
you enough for what you have done and made us a free Nation, 
and I can never do enough for our veterans in this country. We 
have a VA hospital a mile from my front door in Johnson City, 
Tennessee, where I live; and you have my commitment. I wrote 
down your advanced appropriations. I couldn't see why we 
wouldn't do that. It makes absolute sense to do it. As a matter 
of fact, I think it makes absolute sense to do it with the 
whole budget we do here. Get it done in 1 year, and then refine 
it the 2nd year. The VA was a good start. It has worked. The 
veterans shows the way that advanced appropriations work. So I 
absolutely will support that.
    A frustration I have here is $1 billion we spent. That is a 
thousand million dollars. Last year about this time, we were in 
the Veterans' Affairs Committee--the chairman remembers this 
very well--where we couldn't have an integrated electronic 
health record where the VA and DoD can talk. We flushed $1 
billion, and we still can't make it work. That is something 
that I think--this is my 6th year here. I cannot understand, in 
today's technology, why a veteran, a service member, can't 
leave and electronically transfer their records. It hasn't been 
explained to me. We need to do that. We need to hold the VA 
accountable for that.
    I think the backlog of claims has been well-discussed. It 
is coming down. I salute the Secretary on that. He has a real 
commitment to that. The two things that I really am passionate 
about are homeless veterans. I think it is heartbreaking when 
you see a veteran that is sleeping under a bridge that 
honorably served this country; and had we had the HUD VASH 
vouchers, and that has come down. I will salute General 
Shinseki for that. He has been very, very good about that. We 
don't have enough housing stock out there to put these veterans 
in. That is one of our problems at home we have got to work on, 
is a place to house homeless veterans and the people that go 
ahead and get these people back integrated into society. 
Sergeant Major Walsh and I co-chaired the Invisible Wounds 
Caucus. When you have more veterans dying of suicide than you 
do combat, something is wrong. We need programs. We need to 
look into that and find out what the causes are and put the 
resources behind preventing that. And we have so many veterans 
out there that are in need right now. That is one that really I 
certainly feel very passionate about.
    And I think the other one I have seen just at a local level 
is to bring the VA to the communities, the community outpatient 
clinics that we have. We just opened one up in Sevier County, 
Tennessee. It is going to have to be expanded in a year and a 
half. It was that successful. So I think I am going to 
encourage--John and I are having breakfast with the Secretary 
in the morning; so if you want to give us any other questions 
that Senator Heller didn't get, we will be glad to take them in 
the morning. We have breakfast with the Secretary.
    I think the CBOCs are a tremendous success and a way to get 
to care instead of our elderly veterans having to drive miles 
and miles to care, have it in their own community. I will stop 
there, and again, just thank you for your service. I hear all 
of the claims I think we can support pretty much everything you 
have brought up today, Commander. Thank all of you have for 
your service. With that, I yield back.
    The Chairman. Mr. Takano, you are recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman. Well, on behalf of, I 
think, the five Californians, the three of us here, myself, 
Congresswoman Gloria Negrete McLeod, and Congresswoman Julia 
Brownley, Paul Cook, who is not here, and also Dr. Raul Ruiz, 
and Mr. Denham; I am sorry. There is actually six of us, I 
guess.
    I would like to acknowledge the Californians in the room. 
So if you are here from California, please stand and let us 
know you are present. We make that trip back and forth between 
Washington and California, and we know what a journey you made, 
and we appreciate that you have come all that way to let us 
know your legislative agenda. And it is a great honor to serve 
on this committee and to do what we can.
    I represent Riverside County, which is the eighth largest 
veterans population in the country. I met with my veterans' 
advisory council last week. They are doing tremendous work in 
my county to reach out to homeless veterans to find out where 
they are living along the Santa Ana River and in different 
encampments in the Coachella Valley, just to get a count. And I 
am fully aligned, as I think all of us on this committee are 
fully aligned, with the Secretary's goal of ending veterans' 
homelessness.
    I have one question that I want to ask you, Commander. It 
is my understanding that the VA has published new regulations 
that establish presumptions for veterans living with severe 
traumatic brain injury who also have Parkinson's disease, 
certain types of dementia, depression, unprovoked seizures or 
certain diseases of the hypothalamus and pituitary glands.
    Given these additional disabilities, A, is your 
organization aware of any planning or analysis that the VA has 
done that relates to the possible impact on the Veterans 
Administration's backlog of claims.
    Mr. Johnston. I defer that to the staff, sir.
    Mr. Marszalek. Thank you for the question. We are not aware 
of any planning that the VA has right now and how they are 
going to implement that, but we haven't seen an overwhelming 
increase in claims at this time from that at this point.
    Mr. Takano. Because of that rule change, we are not seeing 
a tremendous impact as of now?
    Mr. Marszalek. Right. We haven't seen a spike in the 
backlog. There hasn't been any discussions about initiatives to 
address those particular conditions that were added as 
presumptive conditions.
    Mr. Takano. So we are not anticipating a spike, and 
organizationally, you feel that you are prepared as of now?
    Mr. Marszalek. Well, I am not sure if we anticipate a 
spike. The VA hasn't discussed that they are going to segregate 
these particular claims and send them to a particular place; 
but we hope that if that does come to fruition with Veterans' 
Benefit Management System, that they are able to electronically 
send those cases to regional offices that can handle the 
additional workload where it wouldn't increase a spike in the 
backlog of claims that we already have pending.
    Mr. Takano. Very good. I don't have any further questions. 
I will give my colleagues an opportunity to also ask questions, 
so I yield back my time, Mr. Chairman.
    The Chairman. Thank you very much. Dr. Wenstrup.
    Mr. Wenstrup. Thank you, Mr. Chairman. Believe me, I am so 
grateful to be here with you today. And I know we already had 
the opportunity to see so many delegates from Ohio, and I am 
proud to be from Ohio to see so many of you here today. And if 
anyone out there is somebody that I had the opportunity to lay 
my hands on in Iraq, I want to tell you it was my honor to take 
care of you.
    You know, we have a wall that exists unfortunately, and I 
see it more and more now that I am on this side of things, 
between the Department of Defense and the VA; and I know we are 
in the process of tearing that down. You know, we are one 
family. When you take that oath and you say I am going to serve 
this country, it should go right on through. There shouldn't be 
this wall and this divide between the opportunities that exist 
to take care of our troops. The electronic medical record that 
Dr. Roe spoke about, to me that is shameful, and it delays 
care, makes it more difficult to have a smooth flow of care.
    I do see some positive things. I was at Joint Base Lewis-
McChord at Madigan last year. I see some startup programs where 
they are really starting to focus on transition at the time of 
ETS; and it makes sense to me that if you are disabled, or 
getting a medical separation, that your level of disability can 
be determined at that time and carry right over into the VA 
instead of having to go through these processes and having 
redundant services.
    There are other things that I see starting to take place, 
and that is guiding troops as they are leaving the military 
into being able to use the skills that they have learned in the 
military and translate them into civilian work and helping them 
get there, and guidance on the educational opportunities. And I 
do believe that you have the greatest opportunity when you have 
the troops still in uniform, that they are a more captive 
audience; and these are the types of things that we need to do 
to make your job easier and to tear down that wall between the 
two.
    You know, we endured in our medical practice, my private 
medical practice, where we had to change to an electronic 
medical record. It can be done. You just do it. You just do it. 
And then there is a seamless flow.
    Things are getting better. The opportunities are great. I 
really don't have any questions of you today, except I want to 
thank you for all that you do. I know how active you are. I 
know how many people you help, and I know the challenge that 
comes with that; and I want to thank you for keeping your 
promise of service to this country. Thank you.
    The Chairman. Ms. Negrete McLeod, who is leaving us after 
one term of service in the Congress to go home.
    Mrs. Negrete McLeod. Well, thank you all for being here. 
Thank you for your service, and I won't be redundant; but I 
want to thank the California delegation who is here. So the 
question I would like to say is, and since I have to be 
leaving, I am going to roll two questions into one. I will just 
add an ``and.''
    What steps has DAV taken to conduct outreach specifically 
towards women veterans, and what could the VHA facilities do 
more effectively to integrate women's health care programs into 
the rest of the health care centers?
    Mr. Johnston. I am very proud to say, Madam Congresswoman, 
that we and the DAV lead all of the legacy VSOs on our women's 
programs; and we are the co-sponsors of every meeting that has 
occurred with the VA in order to do that. The specific answers 
to your questions, I will now defer to the staff.
    Mr. Augustine. Thank you. In 2008, we began the Stand Up 
For Women Veterans Campaign and since that time have sponsored 
several films highlighting the military experience of women 
veterans such as LIONESS in Services: When Women Come Marching 
Home. This summer we plan to release a special report and 
sponsor another Capitol Hill event focused on women veterans 
transition issues and do a screening of the film, ``Journey To 
Normal, Women of War Come Home''?
    As with previous events, we plan to bring the women 
featured in the film to Washington and invite Members of 
Congress, their staffs and VA and VOD officials to attend a 
panel discussion following the film screening.
    Our special edition, Women Veterans Magazine, was mailed to 
every VA medical center, and the screening of these films on 
Capitol Hill helped to inform and educate policymakers about 
the special needs of women veterans and resulted in legislation 
being passed to improve benefits and service for women.
    The DAV is also engaging this year on a special research 
project to look into the transitioning of women after 
deployment back into the civilian world, and what issues they 
may be dealing with different from men so that we can be aware 
of it, make the VA aware of it.
    Mrs. Negrete McLeod. Of course, there is lots of women that 
have already returned who are out there, and I know 
homelessness amongst women is a very large issue, and the 
places where they feel safe when they are homeless. Thank you.
    The Chairman. Thank you. Mr. Runyan, you are recognized for 
5 minutes.
    Mr. Runyan. Thank you, Mr. Chairman, and thank each and 
every one of you for your service. I have checked the 
attendance list. There has got to be one or two, but there is 
no New Jerseyans on the list there. There is one. I know the 
rest, everybody's coming down next week. It is not on the 
schedule here today, but thank you all for your service.
    It is rare that we have the panel of expertise from the DAV 
all sitting at one table at one time. Usually we are issue-
specific on what we are talking about, and I know Mr. Violante, 
when we talk about metrics it kind of sets my hair on fire; and 
I don't even know if you are the one to answer this question. I 
will direct it at the Commander, so he can maybe take a chop at 
it and hand it on down.
    When we talk about metrics, and Mr. Michaud kind of touched 
on it a little bit, it seems to me a lot of the time being 
where I am at, and I know it seems to many of our constituents 
and many of our veterans, it is almost that the VA is running 
to the next major crisis. Now, is it there to put out a fire, 
or is it a combination of putting out a fire and actually 
having a lack of actually personnel to address the crisis 
because it seems our attention that are drawn to metrics in the 
VA change monthly.
    I mean, it came up to now, fully developed claims are 
great, but now we have got an increase in appeals, so what is 
the flavor of the day? Are we actually accomplishing anything, 
or are we just playing a shell game, and I just want to throw 
that out for comment and any suggestions that we can pin them 
down to actually try to get a set sheet of measurements so we 
can actually judge the progress they are trying to make.
    Mr. Johnston. We had a report from General Hickey yesterday 
that, indeed, there are some reduction in the claims backlog 
that even goes beyond what we knew of; but I would defer to the 
rest of the staff for the specifics of those questions.
    Mr. Violante. Mr. Runyan, it is one of the things that we 
raised in our testimony about the transparency and making sure 
that we can see the progression and how they are proposing it. 
Because you are right; we put out one fire, and that is the 
backlog, and someone forgets about the fact that now that we 
have done all of those claims and decided them, what happens to 
them. And BVA gets 5 percent of appeals from those that are 
filed, so that is one of the things we would like to see VA do 
a better job at, and that is giving us their metrics and how 
they are figuring this out and what they are looking at; and 
one of the issues that we have talked about in the independent 
budget again is, you know, VHA is able to determine what their 
needs are through a metric program, and VBA should be able to 
do the same.
    Mr. Runyan. Well, I appreciate that, because I sit up there 
and chairing the Subcommittee on Disability Assistance and 
Memorial Affairs, it is a daily occurrence; and what problem 
are we going to tackle this week, and at the same time, the VA 
sits up here and says, well, it takes us two years to get 
anybody trained to do any of this anyway.
    Mr. Augustine. If I might, we do believe that the 
transformation to paperless process is the right thing to do. 
It is in its 4th year now, I believe. It is not an easy thing 
to transition a large bureaucracy like that into paperless 
processing. But we do believe that many of their initiatives 
are now coming on-line, and we are hoping that they are showing 
positive results and will start to help the process be much 
more quality effective from this point forward.
    Mr. Runyan. Well, thank you for that, and I will leave with 
this, dealing with advance appropriations, and I know I brought 
this up when Secretary Shinseki sat in front of us, it was 
literally within the first couple months of my first term 3 
years ago; and I went to a CBOC in the District, a brand new 
expansion. They had the X-ray machine sitting there. They 
couldn't install the X-ray machine because they didn't have the 
IT budget to put the CAT 5 wire in the wall to hook up the 
computer that came with the X-ray machine. And that is the 
detail that we are talking about, and with that I yield back, 
Chairman.
    The Chairman. Mr. Walz, you are recognized.
    Mr. Walz. Thank you, Chairman Miller, and thank you, 
Commander, for your service and for continuing your service and 
to your family. No warrior deploys alone and know warrior comes 
home alone. There is a family and a broader community.
    Commander Miller, thank you. The importance of getting this 
right and the work you do can't be understated. Minnesota 
delegation here, a couple of these folks hold a special place 
for me. I think our State adjutant, First Sergeant Whitehead is 
here. He and I served together in the same artillery unit, so I 
will speak up for you back there, Sergeant. And Dave Wenslow I 
think is here. Dave came to my office through a special 
project, Wounded Warriors. Dave, are you here somewhere? I ask 
that to make sure you are working. Thanks. It is good that he 
is here. So we are grateful, and to each of you, and no one 
comes to Capitol Hill with more credibility than this 
organization; and no one understands the importance of what you 
are doing--this goes beyond care of our wounded warriors, and 
it cuts to the heart of our democracy: What are our values? 
What are our commitments? What do we do as community? And what 
are we willing to do for those who understand a little bit 
about service to this Nation?
    We understand now through technology and other things that 
less and less people serve in uniform. That is a good thing as 
all of you want to know is, because you know what comes with 
that service; but somebody's still got to do it, and so the 
rest of the folks who aren't doing it need to understand 
veterans, benefits aren't a charity or a lottery. That is not 
the way this works, and they are not a secondary thing that you 
think about.
    We have to get this right. We have to get it right not only 
morally to do the right thing, we have to get it right because 
it cuts to the core of the Nation. What is the next generation 
looking at and getting right? So when you bring these things 
and you bring your credibility up here, it is broader than 
that. You hear that. It is healthy to have the debates up here. 
It is not healthy when veterans, as the Commander said, are put 
out there and their well-being is put at risk because we have 
political differences, because I can tell you it is healthy to 
have the differences.
    This thing about, oh, you people can't get along and you 
have differences. Why can't you agree? I feel like asking them, 
have you ever been married? Do you agree all the time? But you 
know what, you love your spouse dearly; but you have 
differences, but you find that commonality. I will tell you 
this: This chairman and these folks you heard speak, there is 
no one I would rather stand with than them. We don't agree on 
all the issues, but we agree for care of our veterans. We agree 
on the basics of the democracy that need to get right. When you 
come here and bring these things up, it is critically 
important. I think it is hard to understand, and for many of 
you, I see familiar faces here. There is folks here, you didn't 
only fight this Nation's wars, you came back and have been 
fighting for these things for decades.
    Now, there is a tendency to be a frustration that, damn it, 
why do we have to fight? You are right. Some of these things 
shouldn't have to be, but democracy is always, has to keep 
growing, has to keep coming; we have to keep at it. It is not 
going to run itself, but we shouldn't have to put up with the 
nonsense of not having the funding there when it is needed, 
fighting whether we were injured and how that injury came 
about, and how do we get the care, because no one in my 
district or any of these folks' districts tells me, you know 
what you guys need to do, you need to cut the budget by making 
sure veterans don't get the care they need. I have never heard 
anyone say that. And they say lots of things to me, good and 
bad. That is not one they say.
    And so Keeping the Promise, nothing should be easier than 
keeping that promise. Every person in America wants us to keep 
that promise. And here's what you need to know. The folks that 
are sitting up here, and I have just two short questions I am 
going to ask, but I think it is important for you to understand 
and you who come out here. There are literally millions of 
folks who they are working today. They have got families. They 
couldn't come out. You sacrificed. You took your time, your 
money; you came out here. These folks who are out here on 
Capitol Hill, they are the best at what they are doing.
    And I can tell you what; many things that get done here, 
they don't get done because of political malice or anything 
like that. They get done out of ignorance because people just 
don't know. Somebody needs to explain how this works. Somebody 
needs to know how to get this right. And what you understand is 
in this country right now. President Kennedy was right about 
this one. You can either curse the darkness or you can light 
the damn candle. So come here and light the candle. Make people 
light the candle. There is a lot of people are connoisseurs of 
cursing the darkness. Well, find a solution. Bring it forward. 
So your advanced appropriations, that is a candle. Get it done. 
Get it lit. Get it fixed. It is not that difficult. Move it 
forward.
    I am just going to ask one thing of this group. How we can 
together help this. I don't know if any of you this weekend, 
this Senator Boozman was part of a little documentary that was 
done on Jason Ehrhart and his family. Jason was blown up in 
Iraq, and he came back home; and the VA, as we did this with 
the Camp Lejeune bill, put in there and said you know what, 
through new technology, it is not good enough just to get these 
guys in wheelchairs. It is not good enough to find the newest 
prosthetic. Because the new--and there are folks here sitting 
are living testimony to this--we don't know what the limits of 
your rehabilitation are, so let's get it there.
    And then we also promised and said if your parents or your 
spouse are taking care of them, we are going to help do that, 
because you know what, they may be your son, but they are our 
warrior. So you are giving the love. You are doing that. I am 
out of time.
    I am out of time, but what I am telling you is Jason and 
his parents, Mike and Pam are telling me, it is not happening 
the way we intended it to happen. They are paying out of pocket 
for those types of things. We have got to figure out how to do 
better because this kid, this 23-year-old kid summed it up 
best. He said what kind of person wants to be told they 
plateaued. What kind of man wants to be told he plateaued? He 
said, I am not plateauing. I want to ski again. I want to go do 
these things again. That is the call to action to us. That is 
the candle we need to light. I just would hope we come back to 
figure out how we ask for that implementation.
    Thank you for indulging me, Chairman.
    The Chairman. Now you know why we call him Commander, 
Sergeant and Major; He is the highest-ranking enlisted soldier 
ever to serve in the United States Congress.
    Ms. Brownley, you are recognized.
    Ms. Brownley. Thank you, Mr. Chair. And I, too, want to 
welcome everyone who is here from the great State of 
California. Thank you for travelling here, and thank you for 
what you do every single day for our veterans in California. My 
hat is off to you; and thank you, Commander Johnston, for your 
testimony today and your very detailed written testimony that 
has been offered to us. I think this is an excellent document 
for us to hold on to and a document that we can refer to often 
to make sure that we are fulfilling our responsibilities, not 
only that we are providing the services our veterans need, but 
our oversight responsibilities as well.
    So thank you for that. And you described the men and women 
in this room as men and women of honor, and I just want to tell 
you, I concur wholeheartedly that every man and woman in this 
room are men and women of honor; and every man and woman who 
have served our country are men and women of honor, and I want 
to express my deep gratitude to them.
    I wanted to follow up on Congresswoman Negrete McLeod's 
questioning with regards to our female disabled veterans and 
female veterans in general, and I am very excited to hear about 
what is coming forward this year. I will look forward to the 
film screening and look forward to the hearing. If there is 
anything I can do to be helpful in that process, I would be 
delighted to offer a helping hand.
    I want to know if we will get to a place where we actually 
have, what are the very specific things we need to do for our 
women veterans and then our ability to create the metrics that 
we have been talking about today and the transparency to have 
the metrics that we need for us to oversee and to make sure 
that we are providing everything we need for our female 
veterans.
    Mr. Johnston. I will defer to the staff.
    Mr. Augustine. Yes. Thank you. Over the last several years, 
the VA researchers have been evaluating the VA's current health 
care delivery model for women veterans. As you know, the 
population of women using the VA system has doubled over the 
last 5 years. We are pleased that one of the VA Secretary's 
highest goals is to ensure that all women veterans have access 
to high quality health care from a provider proficient in 
women's health at all VA facilities. Although there is still 
work to be done to fully achieve this goal, we believe VA is 
heading in the right direction. We especially want to be sure 
that women veterans have access to all VA special programs and 
services.
    Ms. Brownley. Thank you, sir. I appreciate that. And last 
week, this committee, Subcommittee on Health, Dr. Benishek and 
myself, held a subcommittee hearing actually in my district in 
Ventura County in California, to discuss access to traditional 
and alternative mental health care. We learned a lot in that 
hearing. In my county, in Ventura County, there is up to a 44-
day wait period to get any kind of mental health care services, 
which is way too long.
    Intake for mental health services, our veterans in Ventura 
County have to travel into Los Angeles County to just do the 
intake for their services. We don't have enough mental health 
providers to meet the needs in our county, so I am looking 
forward to being able to resolve some of those issues.
    But we did spend a great deal of time also talking about 
alternative mental health options, and I understand that the 
DAV hosts a Miracle on the Mountainside event, and it sounds 
like a really wonderful event; and I am curious to know, from 
your perspective, are there other alternative forms of therapy 
that the DAV has found to improve psychological well-being of 
veterans who are suffering from post-traumatic stress?
    Mr. Johnston. I serve as the chief operating officer in my 
full-time job of the largest mental health agency in 
Cincinnati. Yes, there are many things that are done. There are 
many things that the DAV funds that are alternative therapies 
through our charitable service program, and staff can tell you 
what some of those are; but it can be swimming with dolphins. 
It can be horseback riding. It can be something as simple as 
growing a garden; and all of those things are important to 
people that are reaching out because they have a mental 
illness, albeit depression or severe mental illness; and so the 
normalization of their lives is an important function of that, 
and we believe that, and we do what we can do to fund those 
types of programs, and I defer to the staff for other answers.
    Mr. Augustine. And we agree that alternative therapies are 
very important. Even meditation now is becoming more and more 
known as a way to deal with those type of issues. We are very 
pleased that the VA is now starting to look at some alternative 
therapies. They are not just stuck in their traditional therapy 
mode anymore. They are considering other types of therapies. 
Recently they just hired, I believe, 900 peer-to-peer 
counselors that we are very excited to see the results of that 
initiative. So we do believe they are starting to understand 
the need for alternative therapies.
    Ms. Brownley. Thank you, sir. And thank you, Mr. Chair, for 
your indulgence.
    The Chairman. Thank you, Ms. Brownley. Thank you members 
for hanging in there. Commander, we appreciate your testimony. 
Again to each and every one of you that have made the trip to 
your Nation's Capital: We thank you. We thank you for what you 
have done for this country. We thank you for what you continue 
to do for this country.
    I would ask that all members would have five legislative 
days with which to revise and extend their remarks or add any 
extraneous materials. Without objection, so ordered; and with 
that, Commander, this hearing is adjourned.
    Mr. Johnston. Thank you, sir.
    [Whereupon, at 3:39 p.m., the committees were adjourned.]

                                APPENDIX

                                 <F-dash>

     Prepared Statement of Michael Michaud, Ranking Minority Member

    Good Morning, Commander Johnson. Thank you and all the 
members of DAV and the Auxiliary for your service. We also 
thank you for your continued dedication to our nation's 
veterans.
    I want to take this opportunity to welcome those of you in 
the audience from Maine. The sons and daughters of Maine have a 
history of service to our Nation, and I am glad to see you 
continuing that tradition.
    DAV and other veterans' groups are active and valued 
partners to us in Congress as we work to keep our promise to 
America's veterans. I want to thank you for your work on 
advocating the passage and enactment of H.R. 813, the Putting 
Veterans Funding First Act. We have seen how well advance 
appropriations work for VA medical care. It is time that the 
rest of VA's discretionary budget be treated the same. We owe 
it to America's veterans to provide certain and stable VA 
budgets.
    The VA is pursuing a wide range of initiatives, from new 
methods of health care delivery to electronic benefits 
management. These investments will help bring the Department 
into the 21st century. Working with you and the VA, we will 
make sure that these initiatives are implemented fairly, 
transparently, and in the best interest of veterans and 
taxpayers.
    Making sure that the VA can meet the challenges of the 21st 
century is the job of all of us. I know that DAV, your members 
across the country, and your staff here in Washington are ready 
and eager for the challenge.
    I look forward to your testimony today, and again thank you 
for DAV's long history of distinguished service, in and out of 
uniform.
    Thank you Mr. Chairman and I yield back the balance of my 
time.

                                 <F-dash>

                STATEMENT OF JOSEPH W. JOHNSTON

DAV NATIONAL COMMANDER BEFORE THE COMMITTEES ON VETERANS' AFFAIRS U.S. 
SENATE AND U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC, FEBRUARY 25, 
                                  2014

    Messrs. Chairmen and Members of the Committees on Veterans' 
Affairs:
    It is indeed an honor and a privilege to appear before you 
today to present the legislative and policy recommendations of 
DAV (Disabled American Veterans) for the coming year, and to 
report to you our accomplishments for wounded, injured and ill 
veterans as an organization over the past year.
    Before I report our work to the Committees and make our 
legislative recommendations, I want to take a moment to inform 
all Members of the Committees that DAV has transitioned into a 
new era in our professional leadership. Our superbly effective 
Chief Executive Officer (CEO) and National Adjutant, Arthur 
Wilson, retired in 2013 after a 47-year career in DAV. Art's 
departure after such a long and productive term will clearly 
leave a void, but DAV has selected an able, experienced 
executive in J. Marc Burgess, as our new CEO and National 
Adjutant. Marc is a distinguished Navy veteran, who has held 
increasingly responsible positions in DAV for over 20 years, 
including most recently serving as Executive Director of our 
National Headquarters in Cold Spring, Kentucky. We also have 
seasoned leadership in our Washington office in the person of 
Garry Augustine, our new Executive Director. Garry, an Army 
Vietnam combat veteran, rose to this position after a long 
career in DAV, including serving as our National Service 
Director. Jim Marszalek, a Gulf War-era Marine, has assumed the 
National Service Director position. Last but certainly not 
least, Barry Jesinoski, also a Gulf War-era Marine, has 
returned from our Washington office to lead our National 
Headquarters as Executive Director there. DAV is thrilled to 
have these experienced hands now commanding our professional 
activities in Cold Spring and Washington, D.C.
    At the outset of my statement, I want to thank Members of 
these Committees on behalf of the more than 1.4 million members 
of DAV and our valued Auxiliary for the steadfast support 
Congress has given to wounded, injured, and ill veterans and 
their families and survivors.
    As I sit here before these august bodies today, I am 
reminded of, and humbled by, how important your work truly is. 
Your efforts are important because the people have elected you 
to the House and Senate to represent them across a vast sea of 
crucial national responsibilities, to govern them with care, 
and to protect them from harm in its many forms, so they can 
live their lives in peace. Our DAV mission is important because 
the members of DAV have elected us to represent their interests 
to ensure that their brother and sister veterans, injured or 
made ill in war by virtue of decisions you and your forbears 
made in this Capitol, see their needs met afterward by a caring 
and grateful nation. These responsibilities are not mutually 
exclusive, but are interconnected. My testimony today is 
intended to help you understand this relationship, and perhaps 
give you information showing how DAV brings hope and, most 
important, services to millions of our fellow veterans, without 
any financial support from our government other than in-kind 
services authorized by law. We rely on the benevolence and 
generosity of the American people for the funds that support 
our work on behalf of wounded, injured, and ill veterans. 
However, DAV and others look to you and the government to bring 
that same hope, and restore that same prospect to these 
veterans. Only by working together can we make these veterans 
feel whole again and achieve our mutual goal.
    Members of the Committees on Veterans' Affairs, the group 
before you came into this hearing, in this beautiful and 
historic Cannon Caucus Room, after a public rally we conducted 
at noon today in view of the Capitol dome as part of DAV's 
Operation: Keep the Promise. At that rally we heard the 
stirring words of distinguished veterans and guests, who laid 
out a challenge before Congress, and to the American People, to 
keep the promise made to veterans--and particularly to those 
who paid a high price in military service to our Nation. We 
were joined by thousands of veterans and fellow Americans 
online, who are lending their voices to our call to action. 
Operation: Keep the Promise is focused on ensuring that the 
Department of Veterans Affairs (VA) is afforded sufficient, 
timely, and predictable funding in advance for all its 
budgetary accounts, to enable it to carry out your expressed 
intent, as made so eloquent by Lincoln's words, ``...to care 
for him who shall have borne the battle, and for his widow and 
his orphan.'' To do this, VA needs a sufficient, predictable, 
stable budget, approved by Congress and the President on time 
every year.
    Each of you knows, for different reasons perhaps, that 
Congress and the Administration, in the current political 
climate, cannot seem to agree on how to fund the operations of 
government. In fact for 22 of the past 25 years, the 
government's budget was not approved by Congress and the 
President by the start of the new fiscal year on October 1. The 
VA, like every agency, thereby was stranded in budget limbo, 
waiting out the day when Congress and the Administration have 
finally agreed to an acceptable funding level. The VA to my 
knowledge has never been the reason for any of these 
stalemates, but VA and the veterans it serves were caught 
nevertheless in the same snare. Over the years, this paralysis 
created no end to the problems of running an efficient medical 
care and benefits system, a complex labyrinth of programs and 
services designed to help veterans repatriate, heal, 
rehabilitate, educate themselves, and to compensate them for 
their wounds and injuries, so they might reemerge fully 
prepared to resume their civilian roles in American society.
    After a protracted struggle, in 2009 we solved one key part 
of this problem through Congressional enactment of advance 
appropriations for VA medical care. This law was a godsend to 
six million veterans and to VA itself, and I'll tell you why 
with a very practical example. Advance appropriations proved 
their worth in last October's government shutdown. While nearly 
every other agency in the civil service was thrown into 
shutdown status and chaos for 16 long days, and most of their 
employees were sitting at home in worry, and a plethora of 
federal services lapsed, VA health care facilities and all 
their employees and staff continued normal operations, caring 
for hundreds of thousands of injured, wounded, and ill veterans 
as if no shutdown was underway at all. Other important VA 
programs, however, suffered through the shutdown, then reduced, 
and nearly eliminated, vital services to veterans--because, 
simply put, they began to run out of money. DAV resorted to 
occupying temporary quarters, including tents, when VA regional 
offices were shut down. We were determined that DAV's free 
representational services to veterans would not, and could not, 
be interrupted, despite veterans being locked out of our 
offices at VA benefits locations. Another real fear that 
fortunately did not come to pass was whether veterans' 
disability compensation checks would arrive on time in 
November. We were informed, if the shutdown continued, that 
funds would not be available for disability checks or other VA 
financial benefits, such as survivors' compensation and 
vocational rehabilitation benefits.

    Additional VA Accounts Should Be Advance--Appropriated

    We believe Congress should expand the advance 
appropriations umbrella to protect VA's remaining accounts. For 
example, although VA medical appropriations may provide 
assurance that a new outpatient clinic can open without delays, 
the fact that VA's information technology (IT) funding is still 
provided through the stymied regular appropriations process 
means that computers or other IT systems (such as radiology and 
laboratory equipment) on which health care crucially relies, 
might not be provided until Congress completes work on the 
regular appropriations acts, delaying the clinic opening by 
weeks or even months. Similarly, funding for VA's Medical and 
Prosthetic Research program directly contributes to excellent 
clinical care of veterans, and supports VA's affiliation 
relationships with more than 100 schools of medicine and other 
health professions, but it is funded apart from advance 
appropriations and subject to the same paralysis affecting VA's 
other regular appropriations. VA was on the verge of halting 
thousands of ongoing research projects when the shutdown ended. 
Moreover, the funding for VA construction accounts, providing 
VA capital infrastructure and large investments in facilities 
improvements, would also be more efficient and cost effective 
if it were provided through advance appropriations. Stopping 
construction projects because of an unrelated budget crisis 
only leads to more delay and higher costs for VA. Finally, the 
Veterans Benefits Administration's ability to address the 
backlog of pending claims and transform itself into a modern 
21st century organization is being hindered by now-predictable 
annual budget stalemates and seemingly endless continuing 
resolutions. Given the universally recognized success of 
advance appropriations in VA health care, Congress should 
determine whether some or all of the other VA appropriations 
accounts should be managed through advance appropriations so 
that veterans and their families and survivors are not forced 
to sacrifice yet again, and needlessly.
    Members of these Committees, during last year's Veterans 
Day activities, I attended a ceremony commemorating the 
Traveling Vietnam Veterans Memorial Wall, a national tribute to 
Vietnam veterans who gave the ultimate sacrifice in that 
unpopular war, a war in which I and many members beside and 
behind me, in this historic room, served. When the ceremony 
ended and the crowd was dispersing, a woman from the audience 
approached me to say how grateful she and her husband were to 
DAV for our strong advocacy and unflagging efforts in helping 
to end the government shutdown mere days before VA ran out of 
funds to support the payment of disability compensation. She 
explained to me that she and her husband's only income due to 
his disability and her personal care giving of him is his 
monthly VA compensation. As the shutdown lingered day after 
day, she told me, with tears in her eyes, they had worried 
terribly that without that VA payment on November 1, they 
wouldn't be able to buy food, gas, or pay their rent. As 
National Commander of this tremendous organization, I was 
grateful to her for her kind words about DAV's effective 
advocacy, but it concerned me greatly that she and her husband 
were forced to go through such a terrible ordeal, given the 
sacrifice they had already made for this country.
    We should never again put a disabled veteran or his or her 
family in such a situation. This is why DAV's Operation: Keep 
the Promise intends to make advance appropriations for all VA 
funding accounts, including its mandatory disability payments 
to veterans, our highest legislative priority in 2014. 
Thousands of DAV members and supporters from all over this 
nation are sending social networking, email, and telephonic 
messages today to your offices and those of every Senator and 
House Member. Today, when you pick up and browse your Roll 
Call, Politico, National Journal Daily, or The Hill, you'll see 
our Operation: Keep the Promise message prominently displayed. 
DAV launched this one-day intense campaign because we are 
serious and dedicated to this goal, and I assure you this 
testimony will not be the last time you hear about this urgent 
need. This is not a partisan issue; not a Democratic or 
Republican issue; it's a veteran issue, and as National 
Commander of DAV, I want all of you to join me and everyone 
else in this room, and our 1.4 million DAV and Auxiliary 
members, in making it your highest priority as well. If solving 
this particular problem for wounded, injured, and ill veterans 
is not a high priority for your Committees, Congress in 
general, and the Administration in this New Year, please tell 
me what is. Bills to make this a reality are pending in both 
Congressional chambers; DAV urges you to pass the Putting 
Veterans Funding First Act as a top priority for 2014.

    VA Health Care

    Messrs. Chairmen, let me turn my attention to the VA health 
care system and what it means for members of DAV.
    As you well know, the Veterans Health Administration (VHA) 
is the largest direct provider of basic and specialized health 
care services in the nation with a core mission of providing 
comprehensive veteran-centered health care. Across the nation, 
VA is a model health care provider that has led the way in 
various areas of biomedical research, specialized services, 
graduate medical education and training for all health 
professions, and the use of technology to improve health care. 
VA's specialized programs and treatment for war-related 
polytrauma; traumatic brain injury (TBI); prosthetics and 
orthotics for traumatic limb loss and other trauma injuries; 
spinal cord injury and dysfunction; blind rehabilitation; post-
traumatic stress disorder (PTSD); and post-deployment mental 
health are essential elements to rehabilitate and provide 
comfort to wounded, injured, and ill veterans and their 
families. Such quality and expertise on veteran-specific health 
needs cannot be adequately replicated in the private sector. 
Many DAV members rely solely on the veterans' health care 
system for lifelong care; thus, the Department must continue 
its legacy of excellence with sufficient funds and other 
resources to meet the ongoing specialized needs of wartime 
veterans.
    Messrs. Chairmen, DAV and the veterans we represent are 
grateful for the resources that Congress and your Committees 
have provided to the VA health care system. For more than a 
decade during our two overseas wars, VA has received 
substantial annual funding increases for its health care 
programs. Also, DAV acknowledges the Committees' continued 
oversight and dedication in working to improve the system and 
ensuring that resources Congress provides are spent wisely and 
concentrated on direct patient care and other services. We 
fully support these efforts and want to assist you in ensuring 
a sustainable system for veterans who need VA now and in the 
future. We encourage the Committees to continue the vigorous 
oversight of VA to ensure that its mission is properly carried 
out to care for this nation's veterans, their families and 
survivors. We concur with you, Messrs. Chairmen, that VHA must 
be more transparent, responsive, and accountable to Congress 
and to the veterans it serves. DAV is committed to working with 
Committee members and staff, to report our concerns as they 
arise, and to work to find viable solutions so veterans may be 
better served.
    Members of the Committees, since the beginning of the 
military conflicts in Iraq and Afghanistan, 2.6 million 
individuals have served or are still serving in these war 
zones. More than 6,775 have died from wounds, illnesses, or 
accidents, and hundreds of thousands have been injured, wounded 
in action, or became seriously ill while serving. Of the more 
than 1.7 million service members who have left active duty and 
are now veterans, about one million have sought and obtained VA 
health care in some form. We must make caring for those who 
have served our nation and its citizens an unwavering priority.
    In addition to the previous generations of wartime veterans 
currently receiving VA benefits and health care, VA must make 
continued efforts to absorb the influx of new veterans 
streaming into the system while maintaining a high level of 
baseline services for all enrollees. War veterans must have 
ready access to primary and specialty health care services and 
programs, post-deployment mental health services, cutting-edge 
treatments for TBI, high-quality prosthetic items, and a 
comprehensive array of ancillary health services needed to 
recover and successfully rehabilitate from war-related injuries 
and illnesses. As you might imagine, this is an expensive 
proposition, but its value to these veterans, and to the 
nation, is well worth the cost in our estimation.
    Additionally, given the significant increase in the number 
of women who are now seeking VA benefits and health care in 
unprecedented numbers following wartime service, VHA must be 
prepared to address their unique post-deployment and health 
maintenance needs. According to VA, women are the fastest 
growing segment of new VA health care users. Increased outreach 
efforts to enroll returning veterans from Iraq and Afghanistan 
have resulted in more than 50 percent of eligible veterans 
enrolling and using VA services. In fact, the number of women 
in VA care has doubled over the past 10 years and is projected 
to be 10 percent or more of the total patient population by 
2018. The shifting age demographic of younger women veterans 
enrolling in VA health care over the past decade portends 
implications for both policy and clinical practice in the VA 
health care system. VA must continue to increase capacity in 
women's clinical services and ensure that VA health 
professionals are properly trained and skilled in women's 
health. Additionally, since more than half of women veterans 
under VA care are service-disabled, the Department must 
reallocate resources and ramp up clinical training for these 
high-priority VA beneficiaries with age-appropriate, lifelong 
specialized care.
    Another group of people who deserve unwavering support by 
Congress and the American people are family caregivers of 
severely injured or ill veterans of all military service 
periods. Only with the help of their caregivers are many of 
these severely wounded, ill, and injured veterans able to 
remain out of institutions, reintegrate into their communities, 
and achieve their highest levels of recovery and quality of 
life. Family caregivers are critical members of a veteran's 
health care team--these are unsung American heroes who often 
sacrifice their own health, well-being, employment, educational 
and other goals, to care for their loved ones, our nation's 
true heroes, such as the wife of the Vietnam veteran I met at 
the traveling Vietnam Veterans Memorial Wall. DAV believes it 
is only proper that family caregivers be recognized for their 
decades of sacrifices and dedication, and receive the support 
and assistance they need to fulfill their vital role.
    We are pleased that Congress enacted Public Law 111-163, 
the Caregivers and Veterans Omnibus Health Services Act of 
2010, authorizing VA to provide comprehensive support and 
services to caregivers. Some 10,000 families are covered by 
these new VA services, while a much larger group of families 
carrying the same burdens receives only partial VA support or 
none at all. As one of DAV's priorities, we call on Congress to 
continue the work it began and address this inequity by 
extending equal benefits and services to family caregivers of 
veterans of all military service periods. The particular 
calendar date on which an injury or illness occurred should not 
be a reason for legislation to discriminate against one group 
of veterans to favor another. They are all equal in our eyes, 
and equally deserving of your support and the support of the 
nation.
    Wartime service members, like many generations of veterans, 
chose military service to protect freedoms at home, advance the 
liberty of strangers in foreign lands, and to keep our nation 
safe and strong. At the behest of government these men and 
women serve and make great sacrifices, as do their families. 
For some, the sacrifices are devastating and life-altering; for 
others, life-ending. The men and women of DAV remain steadfast 
in our fight to ensure that our government fulfills its 
promises to all veterans who depend on VA's health care system, 
and for those who will need the system in the future. We 
acknowledge it is not a system absent any flaws, but we want 
your Committees and every Member of Congress to understand that 
VA health care remains a vital resource for veterans, 
especially wartime wounded, injured, and ill veterans, and we 
believe VA must be protected, preserved, and enhanced. It is 
our responsibility, with your help and that of the 
Administration, to ensure VA is properly maintained and 
modernized to deal with the needs of veterans of all 
generations, including those returning from our current wars. 
Especially in recent years, VHA has received its share of 
criticism and been held publically accountable for its errors 
and lapses; however, VA health care also has been cited by 
numerous independent reviewers as outperforming every other 
health care system in America, in quality of care, cost, 
patient satisfaction, and safety.
    Messrs. Chairmen, 10 years ago DAV commissioned a private 
firm to conduct a nationwide survey of DAV members to gauge 
their perceptions of VA quality, satisfaction, access, and 
safety from the perspective of our members, who regularly and 
intensively use VA health care services. We believed then, as 
we do now, that our members might offer a very useful set of 
responses, because they are regular patients, with high 
priority for care. When the report of that survey was 
completed, we were pleased, with rare exception, that our 
members were highly satisfied with VA across a series of 
important questions relating to their care. The primary 
negative responses we received then dealt with access matters 
and waiting times, but our members solidly appreciated the 
quality of VA services they received.
    Based partially on the oversight discoveries of the House 
Committee under Chairman Miller over the past two years, DAV is 
considering conducting a new survey in 2014 of our members on 
many of these same questions. We are anxious to know from 
veterans of all ages wounded, injured or ill from wartime 
service whether VA across the nation is meeting their needs 
now, and whether they perceive VA in ways similar to our 
members' reports in 2004. We will provide both Committees the 
results of our new survey once it is completed.
    Many challenges lie ahead for VA in the decades to come, 
including rising long-term care needs of World War II and 
Korean War veterans; an aging Vietnam-era population with 
rising morbidities; and the long-term physical and mental 
health care needs of veterans of the Gulf War and the wars in 
Iraq and Afghanistan. Barriers to care and delays in the 
delivery of essential benefits and services must be minimized, 
and basic and specialized VA services must be provided, when 
and where veterans need them.

    VA Capital Infrastructure Lacks Investment

    Members of the Committees, DAV believes one of VA's 
greatest single challenges, and one that is both directly and 
indirectly related to a number of oversight matters you have 
uncovered over the past two years, is the enormous gap that has 
grown unabated in VA capital infrastructure. VA's FY 2014 
appropriation for major and minor construction is a mere $1.1 
billion, contrasted with the Independent Budget recommended 
level of $2.6 billion. For FY 2015, the Independent Budget is 
recommending $3.9 billion for all VA infrastructure programs, 
$2.7 billion more than the FY 2014 appropriated level. Our 
request was based directly on VA's own analysis and estimates 
of its capital needs. This has been an annual recurring 
pattern: VA identifies billions in needed new facilities, 
renovations and various capital improvements. Through the 
budget formulation process, however, VA's request is reduced to 
a small fraction of the funds needed. These unaddressed needs 
simply pile up.
    VA's latest estimate in its so-called ``10-year plan'' 
calls for more than up to $64 billion in infrastructure 
investments. As we have indicated in the Independent Budget, at 
current funding rates, VA will need more than 25 years to 
complete its current 10-year plan, a ridiculous proposition. 
Although Congress has funded new VA major medical facilities in 
recent years in Las Vegas, Denver, Orlando, and New Orleans, 
the vast majority of existing VA medical centers and associated 
buildings are more than 60 years old and badly in need of 
renovations, upgrades to building systems, and numerous total 
replacements. Aging facilities create an increased financial 
burden on VA's maintenance requirements and routine operational 
costs, and we believe they also affect quality of care. Unless 
Congress approves additional capital funding, there is a real 
risk that VA's declining infrastructure will diminish the care 
and services VA can provide to wounded, injured, and ill 
veterans. We have not seen any media discuss the situation that 
occurred with the outbreak of Legionella at the Pittsburgh VA 
medical center in the context that the major building systems 
and the buildings themselves are more than 60 years of age, but 
we must wonder if some connection between those decrepit water 
systems within the facilities could be related to the outbreak. 
Would Legionella have occurred in a new VA facility, with new 
piping, venting, and cooling towers?
    Not only does aging infrastructure affect health care 
delivery, but also it challenges VA's academic mission, 
including its significant clinical and biomedical research 
program. VHA conducts world-class and veteran-focused research 
in basic sciences, genomics, rehabilitation, prosthetics 
development, clinical trials, and health services. The 
existence of a robust research program has enabled VA to become 
one of the highest quality health care systems in the world. 
Also, VA researchers have been awarded three Nobel Prizes in 
immunoassay, medicine and chemistry, and are the recipients of 
numerous other prestigious awards both domestically and 
internationally. VA researchers annually publish thousands of 
peer-reviewed articles in the scientific literature, and VA's 
work not only improves care and treatment of veterans, but also 
affects the standard of care for all Americans.
    In 2012, VA released a report from a House Appropriations 
Committee-directed study of infrastructure needs in VA research 
facilities. VA had commissioned the review to three outside 
firms. The report concluded VA needed almost $800 million to 
upgrade, restore, and, in some cases, entirely replace research 
laboratories and associated facilities in 76 VA academic health 
centers. Since the report was released, VA has made no public 
statements with respect to these findings or revealed its 
intentions to address these deficits, many of which deal with 
life-safety issues for veterans and other VA staff.
    We eagerly await the Administration's budget for FY 2015 to 
determine if VA intends to begin the restorative process and 
address, at minimum, the most urgent needs identified in the 
report. The Independent Budget recommends that Congress 
appropriate $50 million in FY 2015 for up to five replacement 
research facilities and $175 million to aid in addressing and 
repairing the most pressing of the priorities identified in the 
report. Also, of great concern to the DAV and the other authors 
of The Independent Budget is the serious under funding of all 
VA construction appropriations accounts. From FY 2002 through 
2014, we have recommended a total of $23.5 billion for major 
and minor construction, yet less than $13.5 billion was 
appropriated by Congress to keep rapidly aging facilities safe 
and operational.
    We ask Congress and VA to consider what has made VA the 
special resource it is today and what must be done to improve, 
sustain and secure its longevity for decades to come. Just as 
you do, we want VA to maintain a stellar reputation and provide 
the highest quality care possible to our Nation's veterans. We 
want our veterans to know that promises made will be kept. 
While direct patient care services are a primary focus, the 
foundational and core needs that make up the system cannot be 
neglected. A dedicated effort must be made to address the 
current physical infrastructure, IT and telemetry needs, and 
address safety deficiencies and other core support programs 
that are the underpinnings of the VA health care system. 
Likewise, creative, capable leaders must be molded to better 
manage the vast network of VA employees, hospitals, community 
based clinics, and ancillary facilities that make up the VA 
health care system. To achieve our goal, the Administration, 
Congress, VA, and the veterans community must work together to 
identify and resolve existing challenges and bring forth the VA 
health care system our nation's veterans deserve and need.

    The Fiscal Year 2015 Independent Budget, by Veterans for 
Veterans

    As of today, Congress has yet to receive the 
Administration's FY 2015 budget request. Indications are the 
Administration's budget will be submitted at the beginning of 
March 2014, possibly later. It should be pointed out and not 
lost on Congress that VA last received an on-time budget 16 
years ago, in 1998. We urge your Committees to closely monitor 
VA's current medical care program funding to ensure VA receives 
sufficient funding from Congress for the remainder of this 
fiscal year, and to carefully examine the VA's budget proposal 
when it is released for the FY 2015-16 periods, to be sure that 
the government continues to provide sufficient, timely, and 
predictable funding for VA health care. Failing to pass VA's 
budget on time and at adequate funding levels simply leads to 
one fact: a failure by our Congress and Administration to meet 
their obligations to our Nation's heroes.
    In the absence of the Administration's budget request for 
FY 2015, DAV and our Independent Budget (IB) co-authors 
(AMVETS, Paralyzed Veterans of America, and Veterans of Foreign 
Wars of the United States) are calling for $61.1 billion in VA 
Medical Care funding. For Medical and Prosthetic Research, the 
IB recommends a funding level of $611 million. The IB 
recommends approximately $2.9 billion for VA's General 
Operating Expenses. For total capital infrastructure programs 
and grants, the IB recommends $3.9 billion, $2.8 billion for 
major medical facility construction projects, $831 million for 
minor construction projects, and $298 million for VA grants to 
state veterans homes and state veterans cemeteries. DAV and its 
IB co-authors recommend a total VA discretionary funding level 
of $72.9 billion in FY 2015.
    More detail on our recommendations for both policy and 
budget matters can be found at www.independentbudget.org. Our 
staffs stand ready to provide you additional or clarifying 
information on our concerns about the budget, and our 
recommendations for VBA and VHA programs and services. We hope 
to testify soon before your Committees on these issues.

    Veterans Benefits Claims Processing Reform and the Vital 
Nature of Disability Compensation

    Messrs. Chairmen, authorizing benefits for veterans, 
especially disabled veterans, without providing the systems to 
deliver those benefits in a timely, accurate manner is a 
promise unfulfilled. For decades, VA's benefits claims process 
has failed to meet that promise. Today, however, for the first 
time in years, some good news is coming from the Veterans 
Benefits Administration. After four years of comprehensive 
transformation that included implementation of new 
organizational and operating processes, new IT systems, and new 
training, testing, and quality control regimes, there is 
measurable progress in addressing the backlog of pending claims 
for veterans benefits.
    As the House and Senate address the major challenges facing 
our Nation, we urge you to continue focusing on the unfinished 
work of reforming the veterans' benefits claims processing 
system. For DAV and many other veterans organizations, ensuring 
that wounded, injured, and ill veterans and their dependents 
and survivors receive all the benefits they have earned, 
without undue delay, remains an important legislative priority 
for 2014.
    As a result of all this transformation, there are 
quantitative metrics showing progress. At the beginning of 
2013, more than 860,000 claims were pending for disability 
compensation and pension. By the end of the year, that number 
had dropped by more than 20 percent, down to about 685,000. The 
number of claims in the backlog--greater than 125 days 
pending--dropped by about a third, from over 600,000 in January 
2013, to just over 405,000 in January 2014. The VBA increased 
the number of claims completed each month from an average of 
about 89,000 during the first four months of the year to more 
than 114,000 during the succeeding six months prior to the 
government shutdown.
    The most important factor driving VBA's productivity gains 
was undoubtedly the policy of mandatory overtime for claims 
processors, a period that ran from May through November. During 
this six-month stretch, the VBA achieved significant increases 
in the number of completed claims per month, reaching as high 
as 129,488 in August, before dropping back down during the 
government shutdown and after mandatory overtime ended just 
before Thanksgiving. The other key factors boosting claims 
production were likely the increased focus on fully developed 
claims (FDCs) and the continued professional development of 
VBA's newest employees hired during the past five years. 
Although the VBA finished the rollout of both the Veterans 
Benefits Management System (VBMS) and the new transformation 
organizational model last year, this achievement likely had 
only a marginal influence on productivity increases last year 
because of the learning curve that both employees and 
management must complete before they reach their full 
productive potential with new systems.
    While the reduction in the backlog was certainly good news, 
even more encouraging was the steady increase in the accuracy 
of claims produced throughout the year, as measured by the 
Systematic Technical Accuracy Review (STAR) teams, which rose 
to 89.6 percent by the end of 2013, as reported by VA. Although 
this figure remains far from the 98 percent accuracy goal put 
forward by the Secretary, it is a significant improvement.
    While the progress is real, we continue to have some 
concerns about a recent trend toward less openness and 
transparency from the VBA over the past year, which could 
hinder its ability to successfully complete the transformation. 
It is essential that VBA work in an open, transparent, and 
collaborative manner with both Congress and VSOs in order to 
continue receiving the support and assistance needed to 
complete this transformation. Just as important, without proper 
and transparent data and metrics, neither Congress nor VSO 
stakeholders can gain the information necessary to provide 
constructive feedback that could help improve VBA's claims 
processing system.

    Creating A Culture of Accountability at VBA

    In order to complete the transformation, end the backlog, 
and decide each claim right the first time, VBA must develop 
and inculcate a new work culture based on quality and 
accountability. At a time when so much national attention has 
been focused on reducing the number of claims pending in the 
backlog, VBA must continue to place at least equal emphasis on 
quality and accuracy, rather than merely speed and production.
    As technologies and processes come online, it is imperative 
that the VBA be able to make timely adjustments to performance 
standards to ensure that production pressures do not outweigh 
the goals of accuracy and quality. VBA must develop a 
scientific methodology for measuring the resources (primarily 
personnel) required to accurately and timely process the 
current and future anticipated workload, as well as develop a 
new model for allocating those resources among VA regional 
offices.
    The VBA must continue to invest in the training and 
professional development of its workforce. Over the past 
several years, the VBA has reengineered its ``challenge'' 
training program for new employees, with four weeks of in-
station training followed by four weeks of training at 
centralized locations around the country. In addition to the 
requirement for all employees to complete continuing training 
of 85 hours per year, VBA has developed a new training program 
called Station Enhancement Training (SET), which requires all 
employees at targeted poor performing VA Regional Offices 
(VAROs) to undergo comprehensive training together for one 
week. SET allows employees to review and refresh their 
knowledge while also providing structured time to work live 
cases under the supervision of the training staff. VBA has 
found that SET not only increased quality, but also boosted 
morale of employees, and the VBA expects to continue SET in 
2014.
    VBA also requires that employees, everyone from coaches to 
Veterans Service Representatives, take and pass a skills-
certification examination every two years. For STAR employees 
the testing is now done every year to ensure that those who 
measure quality are held to the highest standards. 
Certification exams are designed by subject matter experts and 
reviewed by a test committee of employees who process claims to 
ensure that the examinations are appropriate for each class of 
employees. VBA must continue to ensure that its testing regime 
is adequate to measure necessary job skills and that 
appropriate human resources accountability measures are 
developed for employees who fail to pass skills-certification 
examinations.
    In order to sustain progress made with the new IT systems 
and organizational models, the VBA must continue to make the 
changes to its work culture so that quality and accuracy are 
the cornerstones of all activities. VBA's creation of Quality 
Review Teams (QRT) was a powerful statement of the VBA's 
commitment to quality. QRTs perform several functions: they 
conduct local quality reviews, perform in-process reviews, and 
provide select training. In particular, the in-process reviews 
allow errors to be corrected before they negatively affect a 
rating decision and without penalizing the VBA employee. The 
VBA must continually evaluate and improve its training, 
testing, and quality-control programs in order to truly reform 
the claims system over the long term.

    Fully Developed Claims Program

    DAV continues to actively support the fully developed 
claims (FDC) program and the VBA's goal of channeling an 
increasing share of all claims through the FDC program: by the 
end of 2013 nearly 25 percent of all claims filed were done 
through the FDC program, with DAV having the highest rate among 
all VSOs. This approach lowers the burden on VBA employees and 
results in faster and more accurate claims decisions for 
veterans. While not all claims can or will be filed under this 
simplified concept, DAV remains committed to its partnership 
with VBA in the FDC process by encouraging our clients to file 
their claims in this manner. There are particular steps VBA can 
take to ensure continued and improved success of the FDC 
program, such as reducing the number of claims being removed 
from the FDC process and designating at least one individual in 
each VARO as an FDC coordinator to address any problems with 
claims prior to their being removed from the process.

    Private Medical Evidence And Disability Benefits 
Questionnaires

    The VBA should also continue to encourage and support the 
use and acceptance of private medical evidence to eliminate the 
time and resources required to administer compensation medical 
examinations, which would also support efforts to increase the 
number of FDCs filed. The VBA has taken significant actions in 
recent years to encourage private evidence, such as the 
development and use of Disability Benefits Questionnaires (DBQ) 
and the Acceptable Clinical Evidence (ACE) initiative, under 
which VA physicians review existing medical records to 
determine if enough evidence already exists to make a rating 
decision without the need for an extra VA-ordered examination.
    However, resistance lingers in some VAROs and from some 
employees in giving the same weight to private medical evidence 
as for VA medical evidence. To further support efforts to 
encourage the use of private medical evidence, Congress should 
amend title 38, United States Code, section 5103A(d)(1), to 
provide, when a claimant submits private medical evidence, 
including a private medical opinion that is competent, 
credible, probative, and otherwise adequate for rating 
purposes, the Secretary shall consider it and not request a 
duplicative VA medical examination.
    Furthermore, the VBA should expand the availability of 
DBQs, most of which were developed in consultation with DAV and 
other VSO experts, to enable private physicians to submit 
medical evidence on behalf of veterans they treat. The VBA must 
also develop and institutionalize greater cooperation from VHA 
in having VA physicians complete DBQs for veterans treated by 
VHA. In the past year many VHA treating physicians were told 
that they either should not or may not fill out DBQs for their 
patients. The VHA has made efforts to address this problem by 
creating more convenient opportunities for veterans to have 
DBQs completed by VHA physicians at specific times and 
locations. However, VBA and VHA should continue working to 
reach an agreement to have VHA-treating physicians complete 
DBQs for veterans upon request.

    Modernizing Technology Infrastructure

    Perhaps the most important element of VBA's transformation 
strategy is the successful implementation of new technology, 
including the VBMS, the Stakeholder Enterprise Portal (SEP), an 
expanded e-Benefits system with VONAPPS Direct Connect (VDC), 
and the Virtual Lifetime Electronic Record (VLER) initiative. 
In terms of processing claims, the most important technology is 
the VBMS, the paperless, rules-based system the VBA uses to 
create electronic claims files, manage workflow, and determine 
ratings. While full implementation of the VBMS was completed 
ahead of schedule, VBA must continue to receive and allocate 
sufficient funding for scanning paper claims forms and 
evidence, including back-scanning of legacy files.
    We have generally been pleased with VBA's efforts to 
incorporate our perspectives, experience, and expertise 
throughout the IT development process, particularly recognizing 
the important role that VSOs play in the claims process. 
Although some obstacles needed to be overcome in providing full 
access to claims decisions for VSOs that hold power of 
attorney, the VBA continues to work in partnership with VSOs to 
ensure that claimants will be fully represented in the new 
digital environment. The VBA must ensure that neither the VBMS 
nor other new technologies override veterans' rights or the 
ability of VSOs to fully represent veterans in this new 
environment. Likewise, significant work remains, including 
completing the authorization and awards portions of the VBMS 
for compensation, as well as connecting VBMS to the Appeals 
Management Center (AMC), Board of Veterans' Appeals (BVA), the 
United States Court of Appeals for Veterans Claims (CAVC), 
Education Services, and Vocational Rehabilitation and 
Employment (VR&E) service. These connections will allow for a 
continuous electronic flow of vital information throughout the 
claims process.
    Recognizing that no modern IT system or software is ever 
truly ``finished'' is vitally important. In addition to the 
funding required for maintenance of the VBMS system, VBA must 
continue to make significant investments in VBMS development 
for the life of this system. Furthermore, as new IT 
technologies emerge, and new requirements for the VBA are 
identified, the VBMS must evolve to address those needs and 
opportunities, requiring an aggressive development program that 
is supported with sufficient resources.
    Another crucial IT component for reforming the claims 
process has been the development of the SEP, which allows 
service officers representing veterans to directly file their 
claims, upload new evidence, and track the progress of pending 
claims. Essentially, the SEP allows VSOs to do for veterans 
what VDC and e-Benefits allow veterans to do for themselves. 
The VBA must continue to work out problems and glitches in the 
SEP to ensure that VSOs are able to fully represent veterans in 
this electronic environment.
    Perhaps one of the more challenging elements of VBA's IT 
transformation strategy has been the fulfillment of what has 
long been called the Virtual Lifetime Electronic Record. After 
too many years of futile debate, negotiation, and ultimately 
stalemate on the Integrated Electronic Health Record--a key 
component of VLER--VA and the DoD must finally come to an 
agreement on how to create a single interoperable medical 
record that serves the missions of both departments. The 
impasse between the DoD and VA has already cost the Treasury 
more than $1 billion over five years, and less palatable 
alternatives to a single integrated electronic health record do 
not satisfy Congress's 2008 directive to VA and DoD to 
establish an interoperable joint electronic record. The 
seamless integration of VA and DoD medical information is one 
of the keys to truly achieving automated, electronic processing 
of claims for disability compensation and other earned VA 
benefits. Congress, VA, DoD, and the Administration must 
accelerate efforts to finally reach agreement and move forward 
expeditiously.

    Standardized Claims and Appeals

    Finally, VA is proposing to amend its adjudication 
regulations and the appeals regulations and rules of practice 
of BVA to require all claims to be filed electronically on 
standardized forms prescribed by the Secretary, regardless of 
the type of claim concerned; and to require that VA only accept 
an expression of dissatisfaction or disagreement with an 
adjudicative determination by the agency of original 
jurisdiction as a Notice of Disagreement (NOD) only if it is 
submitted on a prescribed form.
    DAV understands the stated intent of VA's proposed 
amendments as an effort to improve the quality and timeliness 
of processing claims and appeals. The purpose of the regulatory 
change is to promote submission of claims and appeals in 
standard formats in order to capture data for a paperless 
claims and appeals system. Nonetheless, we are concerned about 
the proposed rulemaking and the consequential adverse effect 
upon veterans, especially those who do not have the capability 
or ability to file their claim or NOD electronically.
    First, requiring a veteran to submit a claim on a 
standardized form is not a new concept. In fact, a claim for 
disability benefits is defined under title 38, Code of Federal 
Regulations, section 3.151(a), as ``[a] specific claim in the 
form prescribed by the Secretary must be filed in order for 
benefits to be paid.'' So requiring a veteran to file a claim 
on a standardized form is the current practice; the real 
question is how the new proposal would impact the effective 
date of a claim received.
    Unfortunately, this proposal goes much further than simply 
requiring a standardized form to be used; it effectively 
removes the preservation of the date of claim by eliminating 
the informal claim from the process. Under this proposed rule, 
if a veteran did not submit a claim in the prescribed standard 
format, VA would provide the veteran a correct form as a 
response; however, if that same veteran did not return the 
completed forms until seven months later, that new date would 
be the effective date of the claim--not the actual date on 
which the veteran submitted his or her unaccepted claim, 
thereby losing entitlement to seven months of benefits.
    DAV takes no issue with veterans being required to submit 
their claims on standardized forms. This proposed rule, 
however, would cause many veterans, who may have needed those 
seven months due to illness or other reasons, to lose the 
benefit of the informal claims process. This new requirement 
may be intended to entice veterans to file their claims 
electronically, but clearly its practice will cause veterans to 
lose rightful benefits. Congress must further examine this 
matter, because it will have a major adverse impact on veterans 
and the benefits they need and have earned.
    The proposed rule also seeks to require veterans to submit 
their NOD on a standard form. As we have stated, DAV does not 
take issue with requiring veterans to use a standard form; 
however, this proposal will cause many veterans to lose their 
appeal rights. Quite simply, under this proposal if a veteran 
does not use the standard form and complete it exactly as 
directed, no additional time period will be provided to the 
veteran for correction. The appeal period will simply end.
    Messrs. Chairmen, a distinction is being created between 
those who possess the resources and capabilities to meet 
electronic claims filing requirements and those who are not 
able to do so. VA serves veterans and other claimants of 
diverse backgrounds, with varying capabilities, education, and 
financial resources. Some claimants, particularly those of 
limited financial means and those with severe mental or 
physical impairment, will be penalized by VA not retaining some 
measure of accommodation for allowing an effective date for 
entitlement to benefits based upon the receipt of a 
communication expressing such intention.
    Because of this disparity, and its effect on a claimant 
population that may require extra assistance, we recommend that 
an incomplete electronic or non-electronic claim, be considered 
a request for an application of benefits under the proposed 
provisions of title 38, Code of Federal Regulations, section 
3.155(c), and established as the effective date of entitlement 
if an appropriate completed application is received within one 
year of the date the Secretary notifies the claimant and the 
claimant's representative, if any, of the information necessary 
to complete the application, as currently stated in regulation.

    DAV--Dedicated to a Single Purpose: Empowering Veterans To 
Lead High-Quality Lives With Respect and DignitY

    Messrs. Chairmen and Members of these Committees, I now 
turn to a topic that fills me with great pride--the dedication 
of DAV members, some of whom are also employees of our 
organization.
    Everyone behind me knows DAV well, because collectively 
with our 1.4 million fellow members, we are DAV and its 
Auxiliary. We take great pride in making individual 
contributions to the work of our Chapters and Departments 
across this country, helping our communities, helping VA, and 
in so many ways helping other veterans who have served and 
sacrificed. This is not only our mission, but our reward.
    Messrs. Chairmen, in this part of my testimony not only 
will I bear witness to what we at DAV expect from Congress in 
the form of legislation and other support, but I will also 
summarize some of our work that you may not know about, but 
that is important to America's veterans, their families and 
survivors, and also represents how DAV cares for our fellow 
veterans, and for our country.

    Fulfilling Our Promises to the men and women who served

    Messrs. Chairmen, as I indicated earlier in this statement, 
a sacred obligation of our government and core mission of DAV 
is the VA's provision of benefits to relieve the adverse 
effects of disability on veterans and their families. For those 
benefits to effectively fulfill their intended purpose they 
must be adequate, and they must be granted in a timely manner. 
The ability of disabled veterans to maintain themselves and 
their families often depends on the timely delivery of these 
benefits. The need for benefits among disabled veterans is 
usually urgent. While awaiting action by VA, they and their 
families may suffer hardships; protracted delays can lead to 
deprivation, bankruptcies, home foreclosures, and even 
homelessness. Tragically, innumerable veterans have died from 
their service-related disabilities while their claims 
languished at VA, in some cases for years. This sad fact alone 
proves disability benefits are crucial; providing for veterans 
disabled as a result of their service to our nation should 
always be a top priority of the government.
    DAV's core mission is carried out through our National 
Service Program. Our Chapter Service Officers, Department 
Service Officers, Transition Service Officers and National 
Service Officers have never wavered in their commitment to 
serve our nation's wounded, injured, and ill veterans, their 
families and survivors, or any veteran for that matter. In all, 
DAV has 2,949 service officers, including County Veteran 
Service Officers accredited by DAV, all of whom are on the 
front lines, providing much needed claims services to our 
nation's veterans, their families and survivors. No one has 
more impact on our organization's ability to meet our primary 
mission. No one has more impact on our organization's stellar 
reputation. No one has more impact on empowering disabled 
veterans to become productive members of society again. And I 
believe no one has a tougher task than those DAV service 
officers assisting veterans and their families and survivors in 
their claims for benefits from the government--at times a very 
reluctant and entrenched government bureaucracy.
    In addition to the long hours, often frustrating 
circumstances, and tedious tasks, to be effective, DAV National 
Service Officers must gain a solid understanding of the claims 
process in its complex entirety, undergo intense training and 
education in title 38 law and regulations, and complete 
college-level classes associated with our representational 
duties--much of which they receive through the national 
organization--guided, monitored, and supervised by our 
professional National Service Department headquarters personnel 
in Washington, D.C.

    DAV National Service Programs

    To fulfill our mandate of service to America's wounded, 
injured, and ill veterans and the families who care for them, 
DAV directly employs a corps of more than 270 National Service 
Officers, all of whom are wartime service-connected disabled 
veterans who successfully complete their training through VA's 
VR&E service. The military experience and personal claims and 
treatment experiences of DAV NSOs through military and VA 
health care not only provide a significant knowledge base, but 
also help promote their passion for helping other veterans 
through the labyrinth of the VA system. DAV NSOs are situated 
in all VA regional offices as well as in other VA facilities 
throughout the nation.
    Our NSOs undergo a rigorous initial 16-month on-the-job 
training program, as well as structured and continued training 
and education throughout their DAV careers. During the course 
of the on-the-job training program, NSO trainees learn 
applicable laws and regulations pertaining to VA benefits and 
complete a series of academic courses which include anatomy and 
physiology, medical terminology, English composition, legal 
writing, and public speaking. These dedicated NSOs, many of 
whom are veterans of the wars in Iraq and Afghanistan, sustain 
DAV's legacy of providing the best and most professional 
benefits counseling and claims assistance available anywhere. 
With the generous support of a grateful American public and 
public-spirited businesses, DAV is proud to provide these 
services, without cost, to any veteran, dependents, or 
survivors in need.
    During 2013, DAV NSOs interviewed over 187,000 veterans and 
their families; reviewed more than 313,000 VA claims files; 
filed over 215,000 new claims for benefits; and obtained more 
than $4.3 billion in new and retroactive benefits for the 
wounded, injured, and ill veterans we represented before the 
VA. Our NSOs also participated in more than 272,000 VA Rating 
Board actions.

    Appellate Representation of Denied Claims

    DAV employs 11 National Appeals Officers (NAOs) whose duty 
is to represent veterans in their appeals before the BVA here 
in the nation's capital. In FY 2013, our NAOs provided 
representation in 28.9 percent of all appeals decided before 
BVA, a caseload of approximately 12,132 appeals. Almost 47 
percent of the cases represented by DAV resulted in remands. 
These remands resulted in additional consideration or 
development for over 5,665 claimants who had appealed cases 
that were inadequately considered by VA regional offices. In 
approximately 27 percent of the cases, involving 3,265 
appellants represented by DAV, the claimants' appeals were 
allowed, and denials were overturned. This means that 
approximately three-quarters of the appeals represented by DAV 
NAOs resulted in original decisions being overturned or 
remanded to VA regional offices for additional development and 
re-adjudication. DAV's remand and allowance rates were above 
BVA's average of 45.6 percent and 26.2 percent, respectively.
    Additionally, DAV works closely with two private law firms 
that have agreed to provide pro bono services to veterans 
pursuing higher appeals from adverse decisions of the BVA. In 
2013, these pro bono attorneys offered free representation 
before the CAVC in 1,468 denied appeals and provided 
representation in over 1,160 of those cases. Since the 
inception of DAV's pro bono program, our attorney partners have 
made offers of free representation to more than 5,165 veterans 
and have provided free representation in over 3,360 cases.

    Transition Services for New Veterans

    Given the significant number of severely disabled service 
members under care at Walter Reed National Military Medical 
Center (WRNMMC) in Bethesda, Maryland, and in other military 
treatment facility locations, DAV continues to provide direct 
on-site assistance to wounded and injured active duty 
personnel. DAV's Transition Service Program (TSP) is now in its 
14th year. This program provides benefits counseling and 
assistance to separating service members seeking to file 
initial claims for benefits administered through the Department 
of Veterans Affairs. DAV currently employs 33 Transition 
Service Officers (TSOs) who provide free assistance to service 
members transitioning from active military service. These TSOs 
provide services at military separation centers under the 
direct supervision of DAV NSO Supervisors. Our TSOs have been 
trained specifically to perform transition presentations, 
review military service treatment records, and initiate claims 
activities for transitioning veterans military separation 
centers at more than 80 military installations within the 
continental United States.
    DAV's TSP contributes to our goal of maintaining our 
preeminent position as a provider of professional services to 
veterans. In 2013, our TSOs conducted 1,390 briefing 
presentations to groups of separating service members, with 
54,220 total participants in those sessions. Our TSOs counseled 
30,892 persons in individual interviews, reviewed the military 
service treatment records of 30,260 individuals, and submitted 
benefits applications for 19,074 personnel to DAV NSOs for 
filing with the VA.
    DAV continues to work within the guidelines of the recently 
revamped Transition GPS (Goals, Planning, Success) program 
which is a part of the Veterans Opportunity to Work (VOW) Act 
and Hiring Heroes Act. Transition GPS represents the first 
major overhaul of the Transition Assistance Program in nearly 
20 years, and DAV remains committed to advocating for these 
service members to ensure that they are well aware of benefits 
that they have earned. It is through this program that DAV is 
able to advise service members of their benefits and ensure 
that they become aware of the free services that DAV is able to 
provide during all stages of their claims and appeal process.

    DAV Mobile Service Office Program

    DAV's fleet of 10 Mobile Service Offices (MSOs) puts DAV 
NSOs on the road to assist veterans where they live and 
increases accessibility to the earned benefits our nation 
provides to veterans. The specially equipped mobile offices 
visit communities across the country on an advertised and 
scheduled basis. This outreach effort generates a considerable 
amount of claims work from veterans who may not otherwise gain 
an opportunity to seek assistance at DAV National Service 
Offices.
    To support the MSO effort, DAV has received ongoing 
financial contributions from the Harley-Davidson Foundation. 
The mission of this project, called Harley's Heroes, is to help 
DAV reach millions of veterans of all generations and to show 
the respect DAV and the Harley-Davidson Corporation share for 
them. It also ensures veterans gain access to DAV's free 
benefits counseling and claims assistance when and where they 
may be needed.
    DAV also uses its MSOs for outreach to veterans in other 
public awareness programs, such as attending public air shows, 
Native American reservation events, NASCAR races, military 
retiree conventions, the Vietnam Moving Wall appearances, 
homeless veterans ``stand-downs,'' community fairs and parades, 
Veterans Day and Memorial Day activities, veterans job fairs, 
and information seminars of many types.
    These specially equipped MSOs, along with our disaster 
relief teams, also deploy into areas devastated by disasters, 
enabling DAV to provide much-needed assistance directly to 
displaced service-disabled veterans and their families. They 
have been used at ground-zero following the attacks on the 
World Trade Center, around the Gulf Coast following hurricanes 
Katrina and Rita, after a devastating tornado in Greensville, 
Kansas, following a destructive storm in North Carolina, and 
most recently in New York and New Jersey following hurricane 
Sandy.
    During 2013, our MSOs traveled 89,708 miles to 833 cities 
and towns, including 127 Harley-Davidson dealerships. DAV NSOs 
interviewed 20,075 veterans and other potential claimants 
during these appearances.
    When a DAV MSO comes to your state or district, I would 
encourage the Members of these Committees and your staffs to 
stop by to learn first-hand the free services that DAV is 
providing to your constituents. I would also highly recommend 
that you refer any of your constituents who may need assistance 
with their VA claims to visit our MSOs when they are in your 
areas. The MSO schedule can be found on the DAV website, at 
http://www.dav.org/wp-content/uploads/MSOCalendar.pdf.

    Voluntary Service Programs

    Equally vital to the success of our mission to empower 
veterans to lead high-quality lives with respect and dignity 
are the activities of nearly 17,000 DAV and DAV Auxiliary 
volunteers who selflessly donate their time to assist America's 
wounded, injured, and ill veterans. Our Voluntary Services 
Programs ensure that sick and injured veterans are able to 
attend their medical appointments, and that they receive the 
comfort, companionship, and care they need and have earned. Our 
volunteers are at their posts in VA medical centers and clinics 
but they go outside the VA to visit and provide services to 
wounded, injured, and ill veterans within communities, in some 
cases going beyond the current scope of the government in 
providing services. DAV is leading the way in voluntary 
services, which makes all of us proud to be a part of this 
organization and makes me even prouder to have been chosen to 
lead this great organization.
    Between October 2012 and September 2013, these valuable 
volunteers of DAV and its Auxiliary served our nation by 
providing more than 1.8 million volunteer hours of essential 
services to hospitalized veterans in VA facilities and 
transporting veterans to their medical appointments, saving 
taxpayers over $40 million in costs if federal employees had 
been required to provide similar services. Many DAV members 
volunteer at VA medical centers, clinics, and community living 
centers and serve as Hospital Service Coordinators and drivers 
in DAV's nationwide Transportation Network, about which I will 
provide more detail later in this testimony.

    Local Veterans Assistance Program

    In an effort to meaningfully touch the lives of more 
veterans in need of assistance, DAV created the Local Veterans 
Assistance Program (LVAP). Opportunities have always existed 
for individuals to assist veterans and their dependents--and 
DAV and our DAV Auxiliary volunteers have answered that call in 
full measure. We see examples of this each and every day aimed 
at meeting the principal objective of our organization--to 
fulfill our promises to the men and women who have served.
    Our LVAP volunteers contribute time and energy for a 
variety of activities that include, but are not limited to:

        <bullet> Chapter and Department Service Officer work.
        <bullet> Specific outreach efforts, such as DAV's air 
        show outreach programs, Harley's Heroes, and National 
        Guard mobilizations and demobilizations.
        <bullet> Direct assistance to veterans, families, and 
        survivors, including engaging in home repairs, 
        maintenance, and grocery shopping, among many other 
        supportive activities.

    Since its inception six years ago, 5,006 volunteers have 
participated in DAV's LVAP for a total of over 1.6 million 
hours of volunteer service. DAV is constantly seeking new ways 
to recruit and engage DAV members and volunteers. We believe 
this program works to the advantage of all of those we serve.

    The Next Generation of Volunteers

    Sadly, Messrs. Chairmen, we are rapidly losing our veterans 
from the World War II era; and DAV is proportionately 
witnessing the loss of DAV volunteers from that population. 
Ever looking forward, DAV has sought to reward and develop a 
new generation of younger VA volunteers. More than a decade 
ago, we created a youth volunteer scholarship program to ensure 
the future of a viable DAV volunteer effort. In remembrance of 
former VA Secretary and former DAV Executive Director, the late 
Jesse Brown, we launched a special scholarship program in his 
name. Annually, the DAV Jesse Brown Memorial Youth Scholarship 
Program honors outstanding young volunteers who participate in 
the VA Voluntary Service Program and/or through DAV's Local 
Veterans Assistance Program to donate their time and compassion 
to wounded, injured, and ill veterans.
    Since its inception, DAV has awarded 147 individual 
scholarships valued at $1,043,000, to enable these exceptional 
young people to pursue their goals in higher education through 
the value of volunteering. We at DAV are very proud of the 
Jesse Brown Memorial Youth Scholarship Program, and I am 
personally proud to report that our friends at the Ford Motor 
Company most recently indicated their intention to donate 
$45,000 this year to this scholarship program to enable us to 
continue awarding these scholarships to worthy student-
volunteers.
    Another corporation that has come forward to help veterans 
of all eras is Golden Corral, which this past November opened 
its doors again to all veterans on Golden Corral's ``Military 
Appreciation Monday,'' serving more than 433,500 free meals to 
veterans as a means to thank them for their service. Nationwide 
Golden Corral events also yielded more than $1.4 million in 
donations to DAV Chapters and Departments in 2013. Since 2001, 
Golden Corral restaurants have served more than 4 million thank 
you meals to our nation's veterans and helped raise nearly $9 
million in donations for DAV chapters and departments to use in 
outreach and service programs in their communities.
    Well beyond volunteerism itself, generous fundraising 
efforts by Golden Corral, Ford, Harley Davidson, and others 
continue to help support DAV initiatives and programs 
throughout the year, and provide DAV resources to outreach to 
local veterans so we can help them get the benefits and 
services they earned from a grateful nation.

    National Transportation Network

    Messrs. Chairmen, DAV is extremely proud of the service 
provided by our volunteers, many of whom are injured, wounded, 
or ill veterans themselves, or the family members of such 
veterans. These volunteers, some of whom are seated before you 
today in this hearing room, continue to serve the needs of our 
veterans on a daily basis. Many of our nation's wounded, 
injured, and ill veterans are aided because of the time these 
volunteers donate. DAV volunteers, please rise and be 
recognized! Everyone at DAV applauds the efforts of our 
volunteers.
    DAV relies on 193 Hospital Service Coordinators at 152 VA 
medical centers across the country to oversee our National 
Transportation Network. This program provides free 
transportation to and from VA health care facilities to 
veterans who otherwise might not be able to obtain needed VA 
health care services.
    From October 2012 through September 2013, DAV's National 
Transportation Network logged more than 25.9 million road miles 
and transported 717,009 veterans to VA health care facilities. 
Nearly 9,000 volunteer drivers spent over 1.7 million hours 
transporting veterans. Since our national transportation 
program began in 1987, more than 15.8 million veterans have 
been transported over 558 million miles, for a total of more 
than 32.9 million volunteer hours by our DAV drivers.
    In 2013, DAV donated 128 vans to VA facilities at a cost of 
almost $3.3 million. In 2014, we plan on donating 139 vans at a 
cost of $3.7 million. From 1987 through 2013, we have donated 
2,714 vans to VA, at a cost to DAV of $57.6 million.
    DAV's efforts were aided in August 2013 by the support of 
the Ford Motor Company with the gift presentation of seven new 
vehicles to DAV for the Transportation Network. Since 1996, 
Ford has donated 171 vehicles to support our work. DAV is proud 
that Ford Motor Company continues to honor its commitment 
through the instrument of DAV to the men and women who have 
served our nation in uniform.
    DAV's commitment to our National Transportation Network is 
lasting and sure. We have deployed DAV vans in every state and 
nearly every Congressional district serving our veterans, and 
many of whom are your constituents.

    National Disabled Veterans Winter Sports Clinic

    DAV is a collaborator in another outstanding program that 
directly impacts the lives and well-being of seriously wounded 
and injured veterans. Working in cooperation with VA Recreation 
and Voluntary Services, DAV co-hosts the annual National 
Disabled Veterans Winter Sports Clinic. For over a quarter 
century, this exceptional physical rehabilitation program, held 
in the mountains of Colorado, has transformed the lives of 
America's most severely wounded, injured, and ill veterans. 
This unique program--often referred to as ``Miracles on a 
Mountainside''--helps severely injured veterans re-build their 
confidence, compensate for their injuries, and regain balance 
in their lives. This event promotes rehabilitation and 
restoration by coaching and encouraging veterans with severe 
disabilities to conquer adaptive skiing, skating, ice hockey, 
fly fishing, and other sports and shows them by example that 
they are not barred from adaptive recreational activities and 
sports of all kinds. Veterans from all eras have attended our 
clinics, including many who were wounded and injured in the 
Iraq and Afghanistan campaigns. Often, this seminal event 
offers some veterans their very first experience in winter 
sports and gives them motivation to take their personal 
rehabilitation to a higher level than they may ever have 
imagined. Participants have included veterans with multiple 
amputations, traumatic brain and spinal cord injuries, severe 
neurological deficits, and even total blindness.
    For anyone who has attended ``Miracles on a Mountainside'' 
and observed our participants and their efforts, it is an 
inspiring sight, unlike anything you will see anywhere in the 
world. I can assure you, miracles do still occur. These wounded 
heroes experience life-changing events at our National Disabled 
Veterans Winter Sports Clinic, and so do all the inspired 
observers, family members, and volunteers who participate. I 
invite all Members of these Committees to come and experience 
``Miracles on a Mountainside'' with me and other DAV leaders 
this year. Our next clinic is scheduled for March 30 to April 
4, in Snowmass Village, Colorado. If you want to believe in 
miracles, please come and join us.

    DAV Charitable Service Trust

    Organized in 1986, the Charitable Service Trust (CST) is a 
tax-exempt, not-for-profit organization serving primarily as a 
grant-maker for qualifying organizations throughout the nation. 
As an affiliate of DAV, the CST strives to meet the needs of 
ill, injured, and wounded veterans through financial support of 
direct programs and services for service members and their 
families. Accordingly, the CST is dedicated to one purpose: 
empowering veterans to lead high-quality lives with respect and 
dignity.
    DAV established the Trust to advance initiatives, programs, 
and services that might not fit easily into the scheme of what 
is traditionally offered through programs of the VA, our state 
Departments, and other veterans service organizations in the 
community. Not-for-profit organizations meeting the direct 
service needs of veterans, dependents and survivors are 
encouraged to apply to the CST for financial support. Since the 
first grant was awarded in 1988, more than $79.6 million has 
been awarded for services to our nation's heroes. In an effort 
to fulfill the CST's mission of service, support is offered to 
ensure quality care is available for veterans with PTSD, TBI, 
substance-use challenges, amputations, spinal cord injuries, 
and other combat-related injuries, and to combat hunger and 
homelessness. Initiatives for evaluating and addressing the 
needs of veterans from every service era and conflict are also 
encouraged.
    Typically, grants are awarded to programs offering:

        <bullet> Food, shelter, and other necessities to 
        homeless or at-risk veterans.
        <bullet> Mobility items or assistance specific to 
        veterans with blindness or vision loss, hearing loss, 
        or amputations.
        <bullet> Qualified therapeutic activities for veterans 
        and/or their families.
        <bullet> Physical and psychological rehabilitation for 
        veterans.

    Priority is given to long-term service projects that 
provide meaningful support to unserved and underserved 
veterans.
    As veterans confront unemployment, homelessness, and 
physical and psychological illnesses, the need continues for 
innovative, caring programs and services to address these 
challenges. DAV's CST is dedicated to making a positive 
difference in the lives of America's most deserving individuals 
and their loved ones.
    By supporting these initiatives and programs, the Trust 
furthers the mission of DAV in standing up for those who stood 
up for us. For more than nine decades, DAV has directed its 
resources to the most needed and meaningful services for the 
nation's wounded and injured veterans and their families. 
Significantly, the many accomplishments of both DAV and the 
Trust have been made possible through the continued support of 
corporate partners, individuals, and DAV members who remain 
faithful to our mission.

    American Veterans Disabled for Life Memorial

    Messrs. Chairmen, I am pleased to report that the American 
Veterans Disabled for Life Memorial under construction only a 
few blocks from this building is on track to be completed and 
dedicated this fall. I am certain that many of you have seen 
the ongoing construction activity taking place just west of the 
Rayburn Building, including some reconfigurations of roads in 
the area. As you know, Congress enacted authorizing legislation 
for the construction of a national memorial to honor veterans 
who become disabled while serving in the armed forces of the 
United States. DAV, together with other veterans organizations 
and other supporters, has proudly participated with the 
Disabled Veterans' Life Memorial Foundation that Congress 
authorized to design, construct, and raise all the private 
funding necessary to make this vision a reality. It is 
important for me to reiterate that this memorial is not being 
built with public money. It has been a long and challenging 
journey to raise all the funds and secure the required 
approvals, and we are grateful for the continuous support this 
and prior Congresses have lent to create this permanent tribute 
to men and women who have been wounded, injured, or made ill by 
their service to the nation. It will serve as a fitting 
remembrance of their sacrifices, which do not end when wars do. 
Thank you for helping us fulfill this promise, and we hope to 
see many of you in the fall to help us dedicate this unique, 
living memorial.

    National Legislative Program

    Messrs. Chairmen, DAV was founded in 1920 as a nonpartisan, 
nonprofit veterans' service organization. Since then, promotion 
of meaningful, reasonable, and responsible public policy for 
wartime service-disabled veterans has been at the heart of who 
we are and what we do. Regardless of politics and whether we 
agree or disagree with our government's foreign policies and 
military deployments, our service men and women put their 
health and lives on the line to ensure the safety of the 
Republic and to protect the basic freedoms we enjoy as citizens 
of the United States.
    What is right for our nation and our citizens is to take 
care of those who served and sacrificed for our collective 
freedom. We do this by never forgetting the sacrifices of the 
men and women who served. We do this by keeping our promise to 
them: through Congress and VA, to provide the resources and 
services they need to enjoy the best quality of life possible, 
as they make the often challenging transition back to civilian 
life.
    Major policy positions of DAV are derived from resolutions 
adopted by the delegates to our annual National Conventions. 
Since our first National Convention in 1921, DAV's legislative 
program has guided our advocacy for disabled veterans in 
conformance with the collective will of our members. Our 2013-
2014 mandates cover a broad spectrum of VA programs and 
services, and they are available for you and your professional 
staffs to see on DAV's website, at https://www.dav.org/wp-
content/uploads/ResolutionBook.pdf. I invite your staffs to 
consider the content of these resolutions in crafting 
legislation during the remainder of the 113th Congress.

    All Veterans are Created EquaL

    As DAV has testified in the past, we are concerned that 
some of the benefits Congress enacted are exclusive to veterans 
of recent service in Iraq and Afghanistan. While we understand 
that these are special circumstances that may require 
legislative consideration to ease transition challenges from 
military to civilian life, DAV represents wartime veterans of 
all ages and all periods of wartime service. We remain dismayed 
that previous generations cannot take advantage of a number of 
these new improvements enacted into law, and we ask your 
Committees to reconsider the trend to exclude older veterans 
from the new and expanded benefits you have awarded to younger 
veterans, especially the stipend and extensive health care 
benefits for veterans' family caregivers under Public Law 111-
163. I defy anyone to tell me that the struggles of a family 
caregiver of a severely disabled veteran from World War II, the 
Korean War, the Vietnam War, or Persian Gulf War are easier and 
less burdensome than those of a caregiver of a similar veteran 
of wars in Afghanistan or Iraq. They all struggle; they all 
suffer. They all need our support. Congress should not leave 
one of them behind while benefitting the other.
    I am pleased to note that provisions to expand caregiver 
benefits to all generations of veterans, as well as a number of 
other longstanding DAV resolutions are contained in S. 1982, a 
bill introduced by Chairman Sanders. Like thousands of DAV 
members and supporters who have contacted Congress urging 
enactment of this important bill, I call on you to complete 
this crucial legislation.
    With the realization that we will receive ample 
opportunities this year to more fully address many of DAV's 
specific legislative resolutions during hearings before your 
Committees and personally with your staffs, I shall only 
highlight a few key ideas in this testimony. I assure you that 
all of these concepts are covered by DAV national resolutions. 
Along with our VSO partners, and relying upon the strength of 
our grassroots members and supporters, DAV will work 
aggressively and proactively to advance these key legislative 
priorities, while continuing to look for opportunities to 
promote all DAV legislative and policy goals. These are our key 
priorities, and on behalf of our 1.4 million members and 
Auxiliary, I ask that you consider them.

    Disability Compensation and Other Benefits

        <bullet> Complete the ongoing reform of VA's benefits 
        claims processing system, with the focus on quality, 
        accuracy, accountability, and timeliness.Develop and 
        promote legislation and policies to expand the use of 
        interim ratings for veterans filing complex and multi-
        issue disability compensation claims.

        <bullet> Ensure that any revisions to the VA Schedule 
        for Rating Disabilities (VASRD) being considered by VBA 
        remain faithful to longstanding statutory policy 
        underlying the purpose of the VA disability 
        compensation system.
        <bullet> Eliminate inequitable policies that prohibit 
        the concurrent receipt of VA disability compensation 
        and military retired pay and that require Dependency 
        and Indemnity Compensation and military Survivor 
        Benefit Plan payments to be offset.
        <bullet> Provide for a 10-year protection period for 
        service-connected disability evaluations.
        <bullet> Reduce the 10-year rule for Dependency and 
        Indemnity Compensation.
        <bullet> Exclude veterans' disability compensation from 
        countable income for purposes of eligibility for 
        benefits and services under other government programs.
        <bullet> Award interest payments for VA retroactive 
        awards of one year or more.
        <bullet> Oppose any proposal that would offset payments 
        of Social Security Disability Insurance benefits or any 
        other federal benefit by the amount of VA compensation.
        <bullet> Contest any scheme to means test disability 
        and death compensation.
        <bullet> Resist any change that would redefine service-
        connected disability or restrict the conditions or 
        circumstances under which it may be established.
        <bullet> Oppose any recommendations by any commission 
        to reduce or eliminate benefits for disabled veterans.
    Health Care Services
        <bullet> Ensure sufficient, timely, and predictable 
        funding for VA health care programs in the FY 2015 
        appropriation and the FY 2016 advance appropriation 
        bills.
        <bullet> Develop and build support for a comprehensive 
        long term plan to address VA's aging health care 
        infrastructure needs, including VA research facilities.
        <bullet> Expand caregiver services to meet the needs of 
        veterans' caregivers from all eras.
        <bullet> Improve timely access to veterans suffering 
        from TBI, and mental health care and counseling 
        services, with particular focus on newer veterans in 
        transition
        <bullet> Strengthen and expand women veterans health 
        care programs and services.
        <bullet> Develop a comprehensive plan reforming VA 
        long-term support and services.
        <bullet> Provide priority access and timely, quality 
        health care services to service-connected disabled 
        veterans.
        <bullet> Repeal VA and Department of Defense co-
        payments for medical care and prescription medications.
        <bullet> Repeal beneficiary travel deductibles for 
        service-connected disabled veterans and support 
        increased reimbursement rates.
    Employment and Economic Opportunities
        <bullet> Enact legislation to transfer veterans' 
        employment programs from DOL to VA in a new Veterans 
        Economic Opportunity Administration, which also 
        includes VR&E, education, and business programs.
        <bullet> Enact legislation that will allow veterans to 
        transfer their military skills and credentials to the 
        civilian sector to enhance their economic 
        opportunities.
        <bullet> Strengthen veterans' vocational rehabilitation 
        and employment programs by ensuring adequate funding 
        for increased staffing and IT enhancements to meet 
        increases in VR&E demand.
        <bullet> Remove the 12-year delimitating date imposed 
        on Chapter 31 (vocational rehabilitation) entitlement.
        <bullet> Improve delivery of transition services to all 
        separating service members.
    General Issues
        <bullet> Support advance appropriations for all VA 
        programs.
        <bullet> Extend military commissary and exchange 
        privileges to service-connected disabled veterans.
        <bullet> Provide space-available air travel aboard 
        military aircraft to 100 percent service-connected 
        disabled veterans.
        <bullet> Award educational benefits to dependents of 
        service-connected veterans rated 80 percent or more 
        disabled.
        <bullet> Exempt the benefits paid to wartime service-
        connected disabled veterans from the ``Pay-Go'' 
        provisions of the Budget Enforcement Act.
        <bullet> Reduce premiums for Service Disabled Veterans' 
        Insurance consistent with current life expectancy.
        <bullet> Provide the fullest possible accounting of 
        POW/MIAs from all wars and conflicts.

    In Conclusion

    Messrs. Chairmen and Members of the Committees on Veterans' 
Affairs of the Senate and House of Representatives, I hope my 
testimony today demonstrates to you that DAV does not come 
before you with our hand out to ask for special favors, tax 
advantages, or unearned benefits. We are not a special 
interest; like the Congress in many ways, DAV and what we do is 
a broad, general interest of the American people. We believe 
our members, and all veterans who were harmed as a consequence 
of their military service, earn their benefits and pay for them 
in full, in advance. It is true that some of our injured and 
wounded veterans do need a hand up in their post-service 
lives--for transition services; hospitalization, 
rehabilitation, and other health care; prosthetics for lost 
limbs; insurance for the uninsurable; education and re-
training; housing and supportive services, including housing 
for those who become homeless, or services to prevent it; 
business and employment opportunities; compensation for the 
living, and compensation for the survivors of those we lost--
all earned with service and sacrifice. These benefits and 
services help veterans restore themselves and prepare 
themselves for a future as productive citizens; to comfort them 
if they lose their ability to work as a consequence of military 
service; or to keep them and their survivors from slipping into 
poverty. Given what veterans have done for this country since 
its founding more than two centuries ago, we believe it's a 
small price to pay. It's the price of freedom. Many VA 
hospitals are adorned over building entrances or at the front 
gates with these words: ``The Price of Freedom is Visible 
Here.'' I believe this is a powerful and fitting statement to 
honor our heroes and compels our national resolve to keep the 
promise.
    In a related vein, DAV has approved a national resolution 
for years calling on Congress to raise disability compensation 
payments commensurate with a more humane treatment of service-
disabled veterans and the survivors of veterans who die from 
their service-related injuries, but Congress has never 
responded other than to provide annual cost-of-living 
adjustments that, while appreciated, are minimal at best. I 
would ask all of you: have you ever considered what a seriously 
disabled veteran is paid by the nation in disability 
compensation for his or her sacrifice? On average, a 100 
percent service-connected combat-disabled veteran is paid 
$36,000 annually. I would challenge anyone in this room to 
provide for their family on that amount of money for the year 
2014, or any year, especially in the presence of unending 
disability, and all that disability entails to depress the 
quality of a person's life. If Congress even doubled that 
amount, the payment would still be very small for the kinds of 
sacrifices rendered by these veterans. A veteran who loses a 
single leg above the knee in combat only receives a fraction of 
that amount in compensation each year. Some of these veterans 
are behind me today; I encourage you to take the time to talk 
to them about disability compensation and what it means to them 
and their families. They might give you a new insight on what 
``income inequality'' truly means, since that term is much in 
the news these days. We realize this is not an opportune time 
to increase federal mandatory spending, but I believe here is a 
challenge worthy of a grateful nation and of a thoughtful, 
caring Congress, and one that I and everyone in this room would 
hope the Members of these Committees would embrace.
    I hope you will agree that DAV's testimony today shows once 
again that DAV not only advocates on behalf of our nation's 
wounded and injured veterans, but we also continue to give back 
to our nation, our fellow veterans, and our communities through 
the numerous programs detailed in this testimony--in service, 
volunteerism, transportation, therapeutic recreation, claims 
representation, outreach, family care giving of the injured, 
sick and dying, disaster relief, charitable grants, and all the 
other good works in which DAV engages on a broad national 
scale. Membership dues from our Life Members are used to 
exclusively support an effective professional legislative 
department in Washington, D.C. DAV's effectiveness is 
reinforced every day working with you and your professional 
staffs, and those of many Members in both Congressional 
chambers and in both political parties, to accomplish our 
priorities and achieve your legislative goals for wounded, 
injured, and ill veterans.
    Messrs. Chairmen, I hope that I have been able to 
demonstrate to you and your colleagues that DAV devotes its 
resources to the most meaningful services for wounded, injured, 
and ill wartime veterans. These DAV services aid veterans 
directly and support and augment VA programs throughout the 
United States. Our family caregivers actually reduce VA health 
care costs, whether VA provides services and supports to them 
as caregivers, or not. In many dimensions I believe DAV is one 
of VA's most valuable partners in caring for veterans. I trust 
you can see why the men and women of DAV and its Auxiliary are 
proud of this great organization and all that it does for VA, 
veterans, their families and survivors every day of every year.
    In closing, as National Commander, it has been an honor and 
a highlight of my life to appear before you today to serve as 
the voice of DAV, to present our legislative goals for 2014, 
and to present the collective concerns of our organization. I 
know that all of us in this room and all DAV and DAV Auxiliary 
members nationwide share a deep and abiding respect for the 
brave men and women who have served our nation in World War II, 
Korea, Vietnam, the Persian Gulf, and those who serve our 
nation in uniform today, especially those in harm's way 
overseas, not only in Afghanistan and Iraq, but who are 
deployed in many dangerous and challenging places the world 
over. May God watch over them and keep them safe.
    As these Committees deliberate during the second session of 
this Congress, please keep in mind that wounded, injured, and 
ill veterans, their loved ones, family caregivers, and 
survivors paid, and are still paying, a high price for the 
freedoms we cherish--freedoms some people take for granted. The 
only response that we ask to repay their sacrifice is for this 
government to honor its obligations and keep the promise to 
America's veterans, their families, and their survivors. This 
defines DAV at its core and validates Operation: Keep the 
Promise. The defenders of the nation deserve no less.
    God bless the United States of America, our military 
personnel deployed on land, aboard ship and in the air around 
the world, all veterans who are wounded, injured or made ill in 
service to the nation, their families and survivors, and 
Congress and our fellow citizens.

                                 [all]
</pre></body></html>
